<html>
<title> - WASTED ENERGY: DOE'S INACTION ON EFFICIENCY STANDARDS AND ITS IMPACT ON CONSUMERS AND THE CLIMATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


WASTED ENERGY: DOE'S INACTION ON EFFICIENCY STANDARDS AND ITS IMPACT ON 
                       CONSUMERS AND THE CLIMATE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                           Serial No. 116-14

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                            www.govinfo.gov
                            
                            
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-103 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                           
                            
                            

                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
                         Subcommittee on Energy

                        BOBBY L. RUSH, Illinois
                                 Chairman
SCOTT H. PETERS, California          FRED UPTON, Michigan
MIKE DOYLE, Pennsylvania               Ranking Member
JOHN P. SARBANES, Maryland           ROBERT E. LATTA, Ohio
JERRY McNERNEY, California, Vice     CATHY McMORRIS RODGERS, Washington
    Chair                            PETE OLSON, Texas
PAUL TONKO, New York                 DAVID B. McKINLEY, West Virginia
DAVID LOEBSACK, Iowa                 ADAM KINZINGER, Illinois
G. K. BUTTERFIELD, North Carolina    H. MORGAN GRIFFITH, Virginia
PETER WELCH, Vermont                 BILL JOHNSON, Ohio
KURT SCHRADER, Oregon                LARRY BUCSHON, Indiana
JOSEPH P. KENNEDY III,               BILL FLORES, Texas
    Massachusetts                    RICHARD HUDSON, North Carolina
MARC A. VEASEY, Texas                TIM WALBERG, Michigan
ANN M. KUSTER, New Hampshire         GREG WALDEN, Oregon (ex officio)
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
TOM O'HALLERAN, Arizona
LISA BLUNT ROCHESTER, Delaware
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     8
    Prepared statement...........................................    10

                               Witnesses

Daniel R. Simmons, Assistant Secretary, Office of Energy 
  Efficiency and Renewable Energy, Department of Energy..........    11
    Prepared statement...........................................    14
    Answers to submitted questions \1\...........................   174
Andrew deLaski, Executive Director, Appliance Standards Awareness 
  Project........................................................    53
    Prepared statement...........................................    55
    Answers to submitted questions...............................   188
Katherine Kennedy, Senior Director, Climate and Clean Energy 
  Program, Natural Resources Defense Council.....................    73
    Prepared statement \2\
Joseph M. McGuire, President and Chief Executive Officer, 
  Association of Home Appliance Manufacturers....................    74
    Prepared statement...........................................    76
Charles Harak, Staff Attorney and Manager, Energy Unit, National 
  Consumer Law Center............................................    87
    Prepared statement...........................................    89
Stephen R. Yurek, President and Chief Executive Officer, Air-
  Conditioning, Heating, and Refrigeration Institute.............    93
    Prepared statement...........................................    95
David J. Friedman, Vice President, Advocacy, Consumer Reports....   107
    Prepared statement...........................................   109

----------
\1\ Mr. Simmons did not answer submitted questions for the record 
  by the time of printing.

\2\ Ms. Kennedy's statement has been retained in committee files 
  and also is available at https://docs.house.gov/meetings/IF/
  IF03/20190307/109029/HHRG-116-IF03-Wstate-KennedyK-
  20190307.pdf.

                           Submitted Material

Letter of March 6, 2019, from Alexander A. Karsner, Assistant 
  Secretary for Renewable Energy & Energy Efficiency, 2006-2008, 
  Elemental, to Mr. Pallone, et al., submitted by Mr. Rush.......   138
Letter of March 4, 2019, from Mark Cooper, Senior Fellow, and Mel 
  Hall-Crawford, Director of Energy Programs, Consumer Federation 
  of America to Mr. Rush and Mr. Upton, submitted by Mr. Rush \3\
Letter of March 5, 2019, from Gary Shapiro, President and Chief 
  Executive Officer, and Douglas K. Johnson, Vice President, 
  Technology Policy, Consumer Technology Association, to Mr. 
  Rush, and Mr. Upton, submitted by Mr. Rush.....................   142
Letter of March 5, 2019, from Brian F. Mannix, George Washington 
  University, to Mr. Rush and Mr. Upton, submitted by Mr. Rush...   147
Letter of March 6, 2019, from Kevin J. Cosgriff, President and 
  Chief Executive Officer, National Electrical Manufacturers 
  Association, to Mr. Rush and Mr. Upton, submitted by Mr. Rush..   159
Letter of March 7, 2019, from Mark Krebs, Energy Policies and 
  Standards Specialist, Spire Inc., to Mr. Upton, submitted by 
  Mr. Upton......................................................   165
Letter of March 7, 2019, from the American Gas Association, to 
  Mr. Rush and Mr. Upton, submitted by Mr. Upton.................   170

----------
\3\ The information has been retained in committee files and also 
  is available at https://docs.house.gov/meetings/IF/IF03/
  20190307/109029/HHRG-116-IF03-20190307-SD002.pdf.

 
WASTED ENERGY: DOE'S INACTION ON EFFICIENCY STANDARDS AND ITS IMPACT ON 
                       CONSUMERS AND THE CLIMATE

                              ----------                              


                        THURSDAY, MARCH 7, 2019

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Bobby L. Rush (chairman of the subcommittee) presiding.
    Members present: Representatives Rush, Peters, McNerney, 
Tonko, Loebsack, Butterfield, Welch, Schrader, Kennedy, Veasey, 
Kuster, Kelly, Barragan, McEachin, O'Halleran, Blunt Rochester, 
Pallone (ex officio), Upton (subcommittee ranking member), 
Latta, Rodgers, McKinley, Kinzinger, Griffith, Johnson, 
Bucshon, Flores, Hudson, Walberg, Duncan, and Walden (ex 
officio).
    Staff present: Adam Fischer, Policy Analyst; Waverly 
Gordon, Deputy Chief Counsel; Rick Kessler, Staff Director, 
Energy and Environment; Brendan Larkin, Policy Coordinator; 
John Marshall, Policy Coordinator; Lisa Olson, FERC Detailee; 
Teresa Williams, Energy Fellow; Tuley Wright, Energy and 
Environment Policy Advisor; Mike Bloomquist, Minority Staff 
Director; Jordan Davis, Minority Senior Advisor; Margaret 
Tucker Fogarty, Minority Staff Assistant; Peter Kielty, 
Minority General Counsel; Ryan Long, Minority Deputy Staff 
Director; Mary Martin, Minority Chief Counsel, Energy, and 
Environment and Climate Change; Brandon Mooney, Minority Deputy 
Chief Counsel, Energy; Brannon Rains, Minority Staff Assistant; 
Peter Spencer, Minority Senior Professional Staff Member, 
Environment and Climate Change; and Nate Wilkins, Minority 
Fellow.
    Mr. Rush. The Subcommittee on Energy will now come to 
order.
    The Chair recognizes himself for 5 minutes.

   OPENING STATEMENT OF HON. BOBBY RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    I want to thank all of our invited guests for being here 
today to testify at today's hearing entitled, ``Wasted Energy: 
DOE's Inaction on Efficiency Standards and Its Impact on 
Consumers and the Climate.''
    As we are all well aware, Federal efficiency standards 
conserve energy, create jobs, encourage American ingenuity and 
innovation, all while helping domestic manufacturers stay 
competitive in a global economy. The efficiency sector 
currently employs 2.25 million Americans, more jobs than all 
fossil fuel sectors combined, and there are currently over 
315,000 manufacturing workers employed in this sector now, 
which is an increase of nearly 10 percent in 2017. 
Additionally, studies have shown that energy efficiency jobs 
are the fastest-growing in the entire energy sector with an 
additional 133,000 new jobs created in the year 2017 alone.
    However, under the Trump administration, DOE has not only 
failed to publish its legally-mandated efficiency standards, 
but has instead proposed to take the country backwards by 
recently announcing two proposals that would negatively impact 
consumers, the public health, employment, and the environment.
    Full Committee Chairman Pallone, Oversight Subcommittee 
Chairwoman DeGette, and I wrote letters to DOE on two 
occasions, the first being on November 1st of last year and 
again last month, on February 5th, requesting information on 
these delayed standards and a timeline for when the agency 
expects to take action on these standards. Instead of providing 
us with direct answers to our straightforward requests, the 
agency has once again shown what I consider to be contempt for 
the role of Congress by directing us to hyperlinks that could 
be found on the Google search engine.
    Let me be crystal clear. DOE's failure to update the 16 
appliance and equipment standards that were adopted and 
finalized during the Obama administration violates its 
statutory obligations under the Energy Policy and Conservation 
Act.
    What's more, this failure to publish new standards will 
disproportionately harm low-income Americans who are more 
likely to be renters, and therefore, would save money on 
monthly utility bills when outdated appliances are replaced 
with more efficient ones.
    This failure to follow the law, which was enacted on a 
bipartisan basis under President George W. Bush, could 
potentially cost consumers billions of dollars in energy bills, 
while also creating uncertainty for domestic manufacturers.
    Yet, instead of working on its legally-mandated 
responsibilities, just last month DOE announced a new proposal 
to narrow the scope of energy efficiency standards for light 
bulbs, which would set higher efficiency levels for 3 billion 
sockets in American homes.
    DOE's failure to follow its congressional mandate, along 
with its shortsighted proposals, will slow down progress and 
compromise the highly successful standards program that has 
helped save the average family over $500 annually off their 
energy bills.
    So I look forward to today's hearing. I look forward to 
hearing from DOE and I look forward to hearing from the rest of 
our witnesses.
    [The prepared statement of Mr. Rush follows:]

                Prepared statement of Hon. Bobby L. Rush

    Good morning, I would like to thank all of our invited 
guests for being here today to testify at today's hearing 
entitled: ``Wasted Energy: DOE's Inaction on Efficiency 
Standards & Its Impact on Consumers and the Climate''
    As we are all aware, Federal efficiency standards conserve 
energy, create jobs, encourage American ingenuity and 
innovation, all while helping domestic manufacturers stay 
competitive in a global market.
    The efficiency sector currently employs 2.25 million 
Americans, more jobs than all fossil fuel sectors combined, and 
there are currently over 315,000 manufacturing workers employed 
in this sector, an increase of nearly 10 percent in 2017.
    Additionally, studies have shown that energy efficiency 
jobs are the fastest growing in the entire energy sector, with 
an additional 133,000 new jobs created in 2017 alone.
    However, under the Trump administration, DOE has not only 
failed to publish its legally-mandated efficiency standards but 
has instead proposed to take the country backwards by recently 
announcing two proposals that would negatively impact 
consumers, the public health, employment, and the environment.
    Full Committee Chairman Pallone, Oversight Subcommittee 
Chairwoman DeGette, and I wrote letters to DOE on two 
occasions, November 1st of last year and again last month on 
February 5th, requesting information on these delayed standards 
and a timeline for when the agency expects to take action on 
them.
    Instead of providing us with direct answers to our 
straight-forward requests, the agency has once again shown what 
I consider to be contempt for the role of Congress by directing 
us to hyperlinks that could be found on Google search.
    Let me be crystal clear, DOE's failure to update the 16 
appliance and equipment standards that were adopted and 
finalized during the Obama administration, violates its 
statutory obligations under Energy Policy and Conservation Act 
(EPCA).
    What's more, this failure to publish new standards will 
disproportionately harm low-income Americans, who are more 
likely to be renters, and therefore, would save money on 
monthly utility bills when outdated appliances are replaced 
with more efficient ones.
    This failure to follow the law, which was enacted on a 
bipartisan basis under George W. Bush, could potentially cost 
consumers billions of dollars in higher energy bills, while 
also creating uncertainty for domestic manufacturers.
    Yet instead of working on its legally-mandated 
responsibilities, just last month, DOE announced a new proposal 
to narrow the scope of energy efficiency standards for light 
bulbs, which would set higher efficiency levels for nearly 
three billion sockets in American homes.
    These Obama-era standards were projected to save consumers 
approximately $665 billion through 2050.
    This reversal makes absolutely no sense when you consider 
the fact that these efficiency standards are responsible for 
sparking innovative designs that have decreased costs, created 
jobs, and helped domestic manufacturers be more competitive in 
the global market.
    In addition to rolling back light bulb standards, the 
agency also issued a separate proposal to change its ``process 
rule,'' making it more difficult for DOE to update new energy 
efficiency standards for any product in the future, including 
refrigerators, hot water heaters, or air conditioners.
    DOE's failure to follow its Congressional mandate, along 
with its shortsighted proposals, will slow down progress and 
compromise the highly successful standards program that has 
helped save the average family over $500, annually, off their 
energy bills.
    So I look forward to hearing from today's witnesses on 
these important issues, and now I would like to recognize my 
good friend and the ranking member from the State of Michigan, 
Mr. Upton for his opening statement.

    Mr. Rush. With that, I want to yield now to my good friend, 
the ranking member from the great State of Michigan, Mr. Upton, 
for 5 minutes for the purposes of an opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman, for holding this 
important hearing to continue our oversight of DOE's successful 
appliance and equipment standards program. I look forward to 
hearing from Assistant Secretary Simmons, who leads the Office 
of Energy Efficiency and Renewable Energy, which carries out 
this important program.
    In addition to energy efficiency standards, EERE has an 
important responsibility to manage and invest billions of 
dollars in cutting-edge research and development, to encourage 
innovation and to drive the transition to a clean energy 
economy. While this is not a budget hearing--that is going to 
take place in May, as I understand--there have been leaked 
reports about EERE's FY20 budget proposal, which I am not going 
to comment on. But I do want to state for the record that we 
expect EERE to carry out the law as Congress intended and 
utilize the resources that Congress provides.
    Since the mid-80s, DOE has established successive rounds of 
efficiency standards for a wide variety of household and 
industrial products, such as air conditioners, refrigerators, 
washing machines, clothes dryers, furnaces, ovens, dishwashers, 
water heaters, and light bulbs. I believe DOE's efficiency 
standards have served as one of the nation's most effective 
policies for reducing energy use. Efficiency standards have 
also contributed greatly toward reducing our carbon emissions 
and environmental impacts, strengthening our energy security 
for sure, and providing consumers with significant cost 
savings.
    If we are going to have a serious solution-oriented 
discussion about how to address climate change risks, as I 
believe that we should, then we must acknowledge the historical 
progress that we have made with DOE's efficiency program. We 
also must recognize the challenges and opportunities that lay 
ahead and remove regulatory barriers to new technological 
innovations and efficiency gains.
    The Energy Policy and Conservation Act of '75, known as 
EPCA, established the first energy efficiency program, 
consisting of consumer product testing procedures, labeling, 
and energy efficiency targets. Over the last number of years, 
Congress amended EPCA and passed new laws setting prescriptive 
standards for certain products and directing DOE to establish 
new standards via rulemaking for other categories of products.
    For home appliances, Congress requires DOE to conduct a 
six-year look-back where DOE must publish a new standard or 
publish a determination that one is not necessary. Congress 
also requires DOE to maintain a multiyear schedule to regularly 
review and update all standards and test procedures.
    It is long past time that Congress--reexamine EPCA to see 
if there are ways to modernize the 40-year-old statute to 
improve DOE's appliance standards program. So, while DOE seems 
to be doing what it can administratively, with the long-awaited 
update to its Process Rule, for standard settings, it is up to 
Congress to review the law and make changes when appropriate.
    With that, I look forward to the hearing today, and I yield 
the remaining balance of my time to Mr. Latta.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Thank you, Mr. Chairman, for holding this hearing to 
continue our oversight of the Department of Energy's successful 
Appliance and Equipment Standards Program. I look forward to 
hearing from Assistant Secretary Daniel Simmons, who leads the 
Office of Energy Efficiency and Renewable Energy, which carries 
out this program.
    In addition to energy efficiency standards, EERE has an 
important responsibility to manage and invest billions of 
dollars in cutting-edge research and development, to encourage 
innovation to drive the transition to a clean energy economy. 
While this isn't a budget hearing, there have been leaked 
reports about EERE's FY 20 budget proposal. I am not going to 
comment on the leak, but I want to state for the record that we 
expect EERE to carry out the law as Congress intended, and 
utilize the resources that Congress provides.
    Since the mid-1980's DOE has established successive rounds 
of efficiency standards for a wide variety of household and 
industrial products, such as air conditioners, refrigerators, 
washing machines, clothes dryers, furnaces, ovens, dishwashers, 
water heaters, and lightbulbs.
    I believe DOE's efficiency standards have served as one of 
the nation's most effective policies for reducing energy use. 
Efficiency standards have also contributed greatly toward 
reducing our carbon emissions and environmental impacts, 
strengthening our energy security, and providing consumers with 
significant cost-savings.
    If we are going to have serious, solutions-oriented 
discussions about how to address climate change risks, as I 
believe we should, then we must acknowledge the historical 
progress we've made with DOE's efficiency program. We must also 
recognize the challenges and opportunities that lay ahead and 
remove regulatory barriers to new technological innovations and 
efficiency gains.
    The Energy Policy and Conservation Act of 1975, known as 
EPCA, established the first Federal Energy Efficiency Program, 
consisting of consumer product testing procedures, labeling, 
and energy efficiency targets.
    Over the years, Congress amended EPCA and passed new laws, 
setting prescriptive standards for certain products and 
directing DOE to establish new standards via rulemaking for 
other categories of products.
    For home appliances, Congress requires DOE to conduct a 
``six-year lookback'' where DOE must publish a new standard, or 
publish a determination that one isn't necessary. Congress also 
requires DOE to maintain a multi-year schedule to regularly 
review and update all standards and test procedures.
    It's long past time that Congress re-examine EPCA to see if 
there are ways to modernize the 40-year-old statute to improve 
DOE's Appliance Standards Program.
    While DOE seems to be doing what it can administratively, 
with the long-awaited update to its ``process rule'' for 
standard setting, it is up to Congress to review the law and 
make changes when appropriate.
    With that, I look forward to the hearing today and I yield 
the remainder of my time to Mr. Latta, who has taken a lead 
role over the last several years on bi-partisan EPCA 
modernization.

    Mr. Latta. I thank the gentleman for yielding.
    And I also want to thank our witnesses for being with us 
today.
    My district in northwest-west central Ohio has over 60,000 
manufacturing jobs where many of the products covered by the 
program were made. I hear consistently that manufacturers are 
not against regulations, but they want and need common-sense 
regulations that provide certainty to help them plan for their 
businesses.
    Last Congress, I worked on draft legislation regarding 
updating and modernizing EPCA, and I am pleased to see the work 
the Department of Energy has undertaken with the process 
improvement rule. And I believe we need to explore these 
changes and see what needs to be done in statute.
    I believe that energy efficiency is a bipartisan issue, and 
we should be able to work together in this committee to ensure 
that DOE is able to put its resources toward the products and 
categories that will lead to the largest energy savings. This 
is what consumers expect from us. And giving DOE the tools to 
meet deadlines, provide more certainty to manufacturers, and 
therefore, increase innovation and competition to benefit 
consumers should be our goal.
    I recently toured a new, state-of-the-art innovation center 
in my district. Additionally, we have seen produce line 
expansions in other facilities across my district. These 
companies have seen that investing in Ohio was a win for their 
companies and the communities. Certainly, for businesses like 
this one, I want to encourage more investment and innovation, 
and that is why I want to work with my colleagues on this 
program.
    I will look forward to hearing from DOE and our second 
panel today about what DOE is doing and what Congress needs to 
do to continue to strengthen energy efficiency programs.
    And I yield back to the gentleman. Thank you very much.
    Mr. Rush. The Chair now recognizes Mr. Pallone, who is the 
chairman of the full committee, for 5 minutes for the purposes 
of an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today, we are here to find out why the Department of Energy 
is dragging its feet in implementing energy efficiency 
standards that will save consumers money and help combat 
climate change by reducing greenhouse gas emissions.
    For years, promoting energy efficiency was a bipartisan 
issue. During the Obama administration, DOE finalized 50 new 
product efficiency standards. Many of these new standards stem 
from energy bills that this committee passed on a bipartisan 
basis and were then signed into law by President Bush in 2005 
and 2007. In fact, our ranking member, Mr. Upton, played a 
leading role in that 2007 effort, and we are all benefitting as 
a result of that bipartisan work.
    Sadly, the progress on this important program came to a 
grinding halt when President Trump was inaugurated. Since then, 
DOE has made a conscious choice to ignore the law by refusing 
to finalize or update efficiency standards for 16 products, 
including refrigerators, washing machines, and room air 
conditioners. Even more egregious, the Trump administration 
refuses to publish in The Federal Register four efficiency 
standards finalized in December 2016. These standards were 
complete and awaiting official publication, but DOE refused to 
follow the law and follow through.
    And then, last month, DOE announced that it was completely 
discarding a significant update to light bulb efficiency 
standards finalized in January 2017. Those standards expanded 
existing light bulb efficiency guidelines to include a broader 
range of light bulb sizes such as candelabra and cone-shaped 
bulbs. Trashing this significant standard will allow 
inefficient products to remain on the market and increase 
consumers' electricity bills.
    DOE also released a revised process rule which guides how 
DOE sets appliance efficiency standards. The new rule makes it 
harder to update efficiency standards. It does this by cooking 
the economic analysis for new standards so that costs are taken 
into greater account while narrowing the scope of benefits that 
DOE will consider. It also allows manufacturers to use their 
own test procedures to verify a product's energy usage. That is 
a terrible idea. We should have learned something from the 
Volkswagen emission test cheating scandal.
    Even worse, it is clear from publicly-available documents 
that political staff at the Office of Management and Budget 
intervened to make it nearly impossible for DOE to deviate from 
this new process, even when sticking to the process would 
conflict with legal mandates. But most egregious is the fact 
that this administration spent the last two years writing 
proposals that weaken efficiency standards while completely 
disregarding the law's mandate to update or finalize efficiency 
standards for 16 products.
    While I may have issues with this new process rule, I don't 
have a problem with trying to make the process more efficient. 
But when the law says you need to take a specific action, the 
Department's job is to carry out the law, and not go off and do 
whatever it wants. And I hope that is something all the members 
of this committee can agree on.
    Today, all of us who care about the issue of climate change 
have a chance to condemn DOE's delays. National energy 
efficiency standards for appliances are one of the most cost-
effective ways to reduce greenhouse gas emissions, and the 
program has resulted in 3 billion tons of avoided emissions 
since its inception.
     Every day the administration delays updating efficiency 
standards for these common household products, consumers' 
electricity bills remain higher than necessary and more 
electricity is unnecessarily generated to power these less 
efficient appliances. And these delays must come to an end.
    So Mr. Chairman, I just want to say I know that a lot of 
times, when we have these hearings on or we talk about energy 
efficiency, people say, well, how important is that? I can't 
think of anything really right now that is more important and 
has the potential of getting bipartisan support, or really has 
had bipartisan support for a long time, that would actually 
reduce greenhouse gas emissions.
    So when we talk about climate change, this is one of the 
most important things that we can address. And there is no 
reason really why the Trump administration should be turning 
the clock on this, even if they don't believe in climate 
change. What is the downside, if you will, of having more 
efficiency, saving money, reducing costs, and reducing 
greenhouse emissions?
    Thank you. I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today we are here to find out why the Department of Energy 
(DOE) is dragging its feet in implementing energy efficiency 
standards that will save consumers money and help combat 
climate change by reducing greenhouse gas emissions.
    For years, promoting energy efficiency was a bipartisan 
issue. During the Obama administration, DOE finalized 50 new 
product efficiency standards. Many of these new standards 
stemmed from energy bills this Committee passed on a bipartisan 
basis and were then signed into law by President Bush in 2005 
and 2007. In fact, Ranking Member Upton played a leading role 
in that 2007 effort and we are all benefiting as a result of 
that bipartisan work.
    Sadly, the progress on this important program came to a 
grinding halt when President Trump was inaugurated. Since then, 
DOE has made a conscious choice to ignore the law by refusing 
to finalize or update efficiency standards for 16 products, 
including refrigerators, washing machines and room air 
conditioners. Even more egregious--the Trump administration 
refuses to publish in the Federal Register four efficiency 
standards finalized in December 2016. These standards were 
complete and awaiting official publication, but DOE refused to 
follow the law and follow through.
    And then, last month, DOE announced that it was completely 
discarding a significant update to light bulb efficiency 
standards finalized in January 2017. Those standards expanded 
existing light bulb efficiency guidelines to include a broader 
range of light bulb sizes, such as candelabra and cone-shaped 
bulbs. Trashing this significant standard will allow 
inefficient products to remain on the market and increase 
consumers' electricity bills.
    DOE also released a revised process rule, which guides how 
DOE sets appliance efficiency standards. The new rule makes it 
harder to update efficiency standards. It does this by cooking 
the economic analysis for new standards so that costs are taken 
into greater account while narrowing the scope of benefits that 
DOE will consider. It also allows manufacturers to use their 
own test procedures to verify a product's energy usage. That's 
a terrible idea. Haven't we learned anything from the 
Volkswagen emissions test cheating scandal?
    Even worse, it's clear from publicly-available documents 
that political staff at the Office of Management and Budget 
intervened to make it nearly impossible for DOE to deviate from 
this new process--even when sticking to the process would 
conflict with legal mandates.
    But, most egregious is the fact that this administration 
spent the last two years writing proposals that weaken 
efficiency standards, while completely disregarding the law's 
mandate to update or finalize efficiency standards for 16 
products. While I may have issues with this new process rule, I 
don't have a problem with trying to make the process more 
efficient. But when the law says you need to take a specific 
action, the Department's job is to carry out the law, not go 
off and do whatever it wants. I hope that's something all 
members of this Committee can agree on.
    Today all of us who care about the issue of climate change 
have a chance to condemn DOE's delays. National energy 
efficiency standards for appliances are one of the most cost-
effective ways to reduce greenhouse gas emissions, and the 
program has resulted in three billion tons of avoided emissions 
since its inception.
    Every day the administration delays updating efficiency 
standards for these common household products, consumers 
electricity bills remain higher than necessary, and more 
electricity is unnecessarily generated to power these less 
efficient appliances. These delays must come to an end.

    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes Mr. Walden, the ranking member of the full 
committee, for the purposes of an opening statement. Mr. Walden 
has 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Mr. Chairman, and thanks for 
holding this hearing to continue our oversight over the 
Department of Energy's appliance and equipment standards 
program.
    I want to extend a warm welcome to Assistant Secretary Dan 
Simmons, who leads DOE's Office of Energy Efficiency and 
Renewable Energy. Dan, we are glad to have you here and glad to 
know you are finally in place. I guess that all took effect 
officially in January, sworn in. So we appreciate your 
leadership at EERE.
    Republicans are focused on solutions that save energy, help 
the environment, and save consumers money. So, we, too, welcome 
the opportunity to explore ways to strengthen and improve this 
important Department of Energy program.
    Since the early 1980s, the Department of Energy has issued 
minimum energy efficiency standards for a wide variety of 
residential and commercial products, including air 
conditioners, refrigerators, washers and dryers, ovens, 
dishwashers, lighting, and other products that Americans use 
every day.
    The Department's authority to regulate energy efficiency 
and commercial equipment in residential appliances is derived 
from the Energy Policy and Conservation Act of 1975, also known 
was EPCA. While Congress has passed a few updates to this 44-
year-old statute, we learned through our oversight hearings in 
the last few Congresses that more could be done to modernize 
the law and to improve the process to formulate national energy 
efficiency standards.
    Under the Obama administration and under the Trump 
administration, the Department of Energy has missed statutory 
deadlines for efficiency rulemakings. Both administrations 
have. These delays create uncertainty and they have led to 
unnecessary litigation, which makes matters even worse.
    DOE is doing what it can to fix the process 
administratively. Under the Trump administration, DOE has 
completed more than a dozen rulemakings addressing conservation 
standards and test procedures for products such as external 
power supplies, light bulbs, ceiling fans, walk-in coolers and 
freezers, air conditioners, and pool pumps.
    Just last month, DOE announced two new proposals. The first 
would revise the definitions of general service lamps to align 
with the definitions established by Congress in 2007. DOE was 
forced to take this action in response to a lawsuit and 
subsequent Department of Justice settlement agreement reached 
in 2017.
    While some have described this action as a rollback, that 
is a mischaracterization. DOE has appropriately committed to 
undertake a separate rulemaking, as Congress intended, for 
certain specialty light bulbs such as those used in heavy 
machine and marine applications.
    The second proposal, announced in February, would take long 
overdue steps to reform the regulatory process that DOE relies 
upon to develop efficiency standards. The Department of 
Energy's new proposal, an update to the process rule, would 
substantially improve the process for setting efficiency 
standards and test procedures.
    The proposed rule to the process rule would enhance 
transparency, accountability, and regulatory certainty for 
manufacturers and for consumers alike. While it is hard to 
believe this is the first update to the process rule in more 
than 20 years, one of the most important things the process 
rule would do is to define what qualifies as significant energy 
savings. That seems pretty important to do. This will enable 
the Department to better prioritize rulemaking, save energy, 
and put more money back in consumers' pockets.
    Under EPCA, there is not a lot of flexibility, which too 
often has led to unnecessary deadlines and rushed-through 
Federal regulations that fall short of providing customers the 
better--quality products that use less energy. We know that 
unless we amend EPCA, the regulatory backlog will continue, as 
it has under multiple presidential administrations. So it is up 
to us, the Congress, to fix this mess. We are ready to work 
with our colleagues on the other side of the aisle to do so.
    Over the last couple of years, Republican members of this 
subcommittee have been working across the aisle and engaging in 
a wide range of stakeholders' meetings to identify bipartisan 
solutions to modernize EPCA. We have made some progress, but 
there is still plenty to do. So if the Democrats are willing to 
work with us, we are willing to work with you. And we welcome 
the opportunity to work with you to continue this effort this 
Congress.
    Again, Mr. Chairman, thanks for holding this hearing, it is 
really important.
    And I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Mr. Chairman for holding this hearing to 
continue our oversight of the Department of Energy's appliance 
and equipment standards program.
    I would like to extend a warm welcome to Assistant 
Secretary Dan Simmons, who leads DOE's Office of Energy 
Efficiency and Renewable Energy. I understand that Assistant 
Secretary Simmons was officially sworn in in January, so we're 
glad that he's finally in place to provide much needed 
leadership to EERE.
    Republicans are focused on solutions that save energy, help 
the environment, and save consumers money, so we welcome the 
opportunity to explore ways to strengthen and improve this 
important DOE program.
    Since the early 1980's, DOE has issued minimum energy 
efficiency standards for a wide variety of residential and 
commercial products, including air conditioners, refrigerators, 
washers and dryers, ovens, dishwashers, lighting, and other 
products that Americans use every day.
    DOE's authority to regulate energy efficiency in commercial 
equipment and residential appliances is derived from the Energy 
Policy and Conservation Act of 1975, also known as EPCA. While 
Congress has passed a few updates to this 44-year-old statute, 
we learned through our oversight hearings in the last few 
Congresses that more could be done to modernize the law and 
improve the process to formulate national energy efficiency 
standards.
    Under the Obama administration and the current 
administration, DOE has missed statutory deadlines for 
efficiency rulemakings. These delays create uncertainty and 
have led to unnecessary litigation, which makes matters even 
worse. DOE is doing what it can to fix the process 
administratively. Under this administration, DOE has completed 
over a dozen rulemakings addressing conservation standards and 
test procedures for products such as external power supplies, 
light bulbs, ceiling fans, walkin coolers and freezers, air 
conditioners, and pool pumps.
    Just last month, DOE announced two new proposals. The first 
would revise the definitions of general service lamps to align 
with the definitions established by Congress in 2007. DOE was 
forced to take this action in response to a lawsuit and 
subsequent Department of Justice settlement agreement reached 
in 2017.
    While some have described this action as a ``rollback,'' 
that is a mischaracterization. DOE has appropriately committed 
to undertake a separate rulemaking, as Congress intended, for 
certain specialty light bulbs, such as those used in heavy 
machinery and marine applications.
    The second proposal announced in February would take long-
overdue steps to reform the regulatory process that DOE relies 
on to develop efficiency standards. DOE's new proposal, an 
update to the ``process rule'' would substantially improve the 
process for setting efficiency standards and test procedures.
    The proposed update to the process rule would enhance 
transparency, accountability, and regulatory certainty for 
manufacturers and consumers alike. While it's hard to believe, 
this is the first update to the process rule in more than 20 
years.
    One of the most important things the process rule would do, 
is define what qualifies as a ``significant'' energy savings. 
This will enable the Department to better prioritize 
rulemakings to save energy and put more money back in 
consumer's pockets. Under EPCA, there is not a lot of 
flexibility, which too often leads to unnecessary deadlines and 
rushed sue-and-settle regulations that fall short of providing 
consumers with better quality products that use less energy.
    We know that unless we amend EPCA, the regulatory backlog 
will continue, as it has under multiple Presidential 
administrations. It's up to Congress to fix this mess and we 
are ready to work with our colleagues on the other side of the 
aisle to do so. Over the last couple of years, as Mr. Latta 
just mentioned, Republican members on this subcommittee have 
been working across the aisle and engaging a wide-range of 
stakeholders to identify bipartisan solutions to modernize 
EPCA.
    We've made some progress, but there is still plenty of work 
to do. If the Democrats are willing to work with us, we welcome 
the opportunity to work with you and to continue this effort 
this Congress. Mr. Chairman, I want to thank you for holding 
this hearing. With that, I yield back the balance of my time.

    Mr. Rush. I want to thank the gentleman. The gentleman 
yields back.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made part of the record.
    And I would like now to introduce our witness for the first 
panel of today's hearing, Mr. Daniel Simmons, Assistant 
Secretary Simmons, who is the Assistant Secretary for the 
Office of Energy Efficiency and Renewable Energy in the 
Department of Energy.
    Mr. Secretary, welcome to this subcommittee hearing. You 
have 5 minutes for an opening statement.
    And before we begin, I would like to explain the lighting 
system to you. You might be familiar with it, but it is written 
in here to my script. In front of you is a series of lights. 
The light will initially be green at the start of your opening 
statement. The light will turn yellow when you have1 minute 
remaining. Please begin to wrap up your testimony at that 
point. The light will turn red when your time has expired.
    We want to thank you again for joining us today, and we all 
look forward to your testimony. You are now recognized for 5 
minutes for your opening statement.

STATEMENT OF DANIEL R. SIMMONS, ASSISTANT SECRETARY, OFFICE OF 
  ENERGY EFFICIENCY AND RENEWABLE ENERGY, DEPARTMENT OF ENERGY

    Mr. Simmons. Thank you, Chairman Rush, Ranking Member 
Upton, Ranking Member Walden, as well as Chairman Pallone. 
Thank you for the opportunity for the Department of Energy to 
appear before the committee today and to discuss the appliance 
standards program and ways in which the Department is working 
to improve the process for developing energy conservation 
standards.
    The program within DOE's Office of Energy Efficiency and 
Renewable Energy implements minimum energy conservation 
standards for more than 70 categories of labor-saving 
appliances and equipment and has far-reaching impacts on 
American consumers and businesses.
    As EERE Assistant Secretary, I am responsible for 
overseeing a broad portfolio of energy efficiency and renewable 
energy programs, and one of my top priorities is energy 
affordablility.
    Affordable, reliable energy is critical to human well-
being. When energy is more affordable, it frees up more of our 
budget and time, so we can spend these precious resources on 
the things we care about most. Affordable energy is one of the 
things that makes the EERE portfolio so important. We have seen 
multiple successes through EERE technologies over the past 10 
years, including dramatic reductions in the price of 
photovoltaic solar, onshore wind, electric vehicle battery 
packs, and LED lights. Technological innovation is the driving 
force behind these successes.
    In addition to its significant research and development 
responsibilities, EERE is also responsible for a large 
regulatory portfolio which implements State energy conservation 
standards for appliances and equipment.
    Since January 2017, DOE has issued seven final rules 
pertaining to energy conservation standards, two final rules 
pertaining to test procedures under the appliance standards 
program. As reported in the fall 2018 Unified Agenda of 
Regulatory and Deregulatory Actions, EERE plans to take action 
on 24 test procedures and 17 energy conservation standards in 
the coming months. There was a proposed test procedure that we 
announced yesterday. There will be another one, if not 
tomorrow, early next week. So we are making progress.
    Since the passage of the Energy Policy and Conservation Act 
of 1975, DOE has used a process for considering new and amended 
energy conservation standards to ensure that they meet our 
statutory requirements. That process, which was first 
formalized in 1996 in DOE's so-called process rule, typically 
takes a minimum of three years to complete and consists of four 
phases, each with an opportunity for the public to provide 
input.
    First, DOE publishes a framework document presenting the 
analytical, procedural, and legal principles that will guide 
the rulemaking. In the second phase, DOE conducts and publishes 
a preliminary assessment of available technical, economic, and 
market data about the product. During the third phase, DOE 
publishes a proposed rule in which DOE proposes an efficiency 
level that it has determined will result in the maximum 
improvement in energy efficiency that is both technologically 
feasible, and economically justified and would save a 
significant amount of energy. The fourth phase is the final 
rule, in which DOE considers public input in response to the 
proposed rule, further revises the analysis, if appropriate, 
and issues the final rule.
    We have had great success administering the program, and we 
believe that DOE can further improve the process by which it 
develops standards to make the program even more effective. 
This is why we recently proposed to amend the process to 
enhance early engagement opportunities for stakeholders and 
increase certainty throughout our rulemaking process.
    These improvements will reduce the burden of the process by 
which standards are developed, preserve product choice for 
consumers, and prioritize those standards that are expected to 
save consumers and businesses the greatest amount of energy. In 
addition, and importantly, these process measures can improve 
DOE's ability to comply with statutory deadlines that the 
program has had difficulty meeting throughout its history by 
focusing 100 percent of our efforts on the rules that have 
accounted for nearly 100 percent of the historical energy 
savings.
    In addition to the process rule, DOE has also published a 
proposed rule to maintain the existing statutory definition for 
general service lamps and withdraw the definitions established 
in January 2017. Through this proposal, DOE is showing that it 
will follow the text of the law. Maintaining the statutory 
definitions provides manufacturers with regulatory certainty 
that they will not be prohibited from selling hundreds of 
millions of light bulbs. At the same time, DOE will continue to 
advance cutting-edge research and development of next-
generation lighting technology to further drive improvements in 
efficiency and affordability.
    As Ranking Member Upton mentioned, there was an article 
this morning about EERE's budget. Obviously, I cannot comment 
on the budget before it has been released. However, I am more 
than happy to talk about how we are executing the monies that 
have been appropriated for FY 2019. In the last week, we have 
announced two funding opportunity announcements, one on 
hydrogen and the exciting technologies there, and another on 
efficiency improvements on medium- and heavy-duty trucks. So 
there is a lot going on, and you will see more in the coming 
weeks. But I, obviously, can't comment on a budget that has not 
been released.
    DOE is committed to working with Congress as it considers 
these and other important issues of DOE's appliance standards 
program. Thank you for the opportunity to appear before the 
subcommittee today to discuss these important energy efficiency 
issues. And I look forward to your questions.
    [The prepared statement of Mr. Simmons follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I want to thank the Assistant Secretary.
    We have now concluded the opening statement. We will now 
move to Member questions. Each Member will have 5 minutes to 
ask questions of our witnesses, and I will start by recognizing 
myself for 5 minutes.
    Assistant Secretary Simmons, it is very, very disturbing to 
me that DOE, under the current administration, has invested so 
much valuable time in working on two new proposals that are 
both unnecessary and would actually harm consumers. Yet, at the 
same time, it has spent little to no time in publishing the 
legally-mandated efficiency standards that it should have been 
working on.
    Mr. Assistant Secretary, is it your interpretation that DOE 
has the discretion to choose when or if it must follow 
congressionally-mandated laws and obligations?
    Mr. Simmons. No, we must follow the text of the law.
    Mr. Rush. Well, what is the reasoning for these delays in 
publishing these mandates that are congressionally-directed to 
the Department?
    Mr. Simmons. So the law requires, the law sets out certain 
deadlines. The law also requires, for setting standards, what 
we need to determine is the maximum improvement in energy 
efficiency that is both technologically feasible and 
economically justified. And there are seven different factors 
that go into deciding whether something is economically 
justified.
    That process can take a decent amount of time to consider 
what is a maximum improvement in energy efficiency that is 
possible, what is technologically feasible. That process can 
take literally years to consider, especially because we are not 
allowed to reduce the performance characteristics of products. 
So the process can take a long time to go through, and it is 
important that we do a good job following the process to make 
sure the substance of the rules----
    Mr. Rush. Mr. Secretary, was this process that you are 
currently discussing, wasn't this analyzed during the last 
administration? And all that remains of you and the Department 
today is to publish these standards?
    Mr. Simmons. If you are talking about the four rules that 
are currently in litigation that were not finalized by the 
Department by sending them to The Federal Register, those are 
currently in litigation, and because they are in litigation, I 
can't discuss those rules.
    Mr. Rush. Well, what about the other 12 rules that are not 
in litigation?
    Mr. Simmons. Those rules are currently moving forward. As 
you said, we have a statutory obligation, we have a legal 
obligation to complete those rules, and we are working on those 
rules. If those rules were ready to go, we would be sending 
them to The Federal Register, but there are no rules that----
    Mr. Rush. Mr. Secretary, we know that a typical household 
saves about $500 per year because of the current standards, 
making energy conservation standards the most efficient tool 
DOE has for making anything more affordable for the average 
American. Additionally, the cost of LED lights has decreased 
significantly over the past 10 years. You have even stated 
publicly that these bulbs have dropped over 90 percent in price 
over the past decade. According to the Appliance Standards 
Awareness Project, this proposed light bulb rollback will cost 
the average American household an extra $100 a year, and 
overall, consumers will be forced to pay an additional $12 
million between now and 2025 on electric bills.
    So my question to you is, why are you rolling back the 
light bulb standards? What is the reason or justification for 
this action on your part? And who exactly are you trying to 
help by this proposed rollback?
    Mr. Simmons. To clarify, we are not rolling back a 
standard. We are defining what is a general service lamp by 
using the text of the statute. We are following the law about 
what is a general service lamp. That is a change in definition 
from what was previously put in place, but it is critical for 
us to follow the law, including for things that may result in 
energy savings.
    One of the things that I will note is that I am very 
skeptical of large amounts of harm to the American people 
because they have greater selection of light bulbs available to 
them. This definition does not take any light bulbs off the 
table, and if you go to Home Depot today, you will see, for 
example, you will see where the lighting industry is headed and 
that that future is LED lights.
    Just the other day, I bought some of the lights that are 
not required, would not be required to be LEDs. I bought them 
as LEDs when I was at Home Depot. The future is LED. The future 
is greater energy conservation in lighting.
    Mr. Rush. My time is up. The Chair will now recognize Mr. 
Upton for 5 minutes to ask questions.
    Mr. Upton. Well, thanks, Mr. Chairman, again.
    I have long been a supporter of DOE's work on appliance 
standards, but I realize we have to be realistic about the 
challenges. And I know that you have got a good number of 
delayed rulemakings that has built up over a number of 
different administrations.
    And I just want to go back to a comment that I made in my 
opening statement about the process rule. This is the look-
back. Why is it so important to update that process rule, and 
how will some of the changes, such as defining significant 
energy savings, help prioritize in that effort?
    Mr. Simmons. I think the most important thing for DOE to do 
is to follow the process rule. When the Clinton administration 
in 1996 put the process rule in place, it was overall a good 
rule. And what is critical is that we follow all the steps, as 
in that we have a test procedure and that test procedure is 
finalized to know how we are measuring energy before we discuss 
how much energy an appliance can use, because you can't--that 
just can result in disconnects. And that has not always 
happened.
    So what we really wanted to stress, first and foremost, is 
to follow the process that was outlined in 1996. Second, the 
best way that we achieve substantive good rules, good rules 
substantively, is to make sure that there is robust stakeholder 
engagement, robust public engagement. And the best way we do 
that is by going through the process. That can take time, as we 
have seen.
    Mr. Upton. And how has the look-back requirement hampered 
your ability to comply with the statutory deadlines, the six-
year look-back?
    Mr. Simmons. Well, one of the challenges is that there are 
some circumstances where a rule, a compliance date--we have a 
compliance date, and then, we have to start looking at a new 
rule just after that. One example is with clothes dryers. There 
was a compliance date of January 2015, but, then, the program 
started to look, in March of that same year, at regulating the 
product again. And that sort of thing has also happened with 
commercial clothes washers, where work started on a new rule 
even before the previous rule was finalized, even before the 
compliance date.
    Mr. Upton. So would it be better, as we try to address this 
or think about the future, would it be better to have it maybe 
six years after the rule is finalized and, actually, the 
product in use at that point?
    Mr. Simmons. There is definitely an argument to be made 
that, after the compliance, it could be after the compliance 
date. Because the challenge is that we have to look at what is 
out on the market. We have to look at the art of the possible. 
And that is difficult to do when you have a compliance date and 
then, we start a couple of months later looking at revising the 
standard.
    Mr. Upton. The last question I have--and we are going to 
talk a little bit about this on the second panel--DOE has been 
sued, we know, by efficiency advocates and product 
manufacturers over missed deadlines. What are you doing to 
improve the transparency in the rulemaking process, so that 
consumers can be confident that the new products that they are 
purchasing meet that expectation for quality, convenience, and, 
obviously, for energy efficiency?
    Mr. Simmons. Well, the biggest thing we are doing is 
following the process and moving stepwise through the process, 
making sure that we are conducting a process that is overall 
open and transparent, and that there is stakeholder engagement, 
and there is plenty of time for public comment. Because the 
public comment is critical to making sure that we get rules 
that are, in the end, substantively beneficial.
    Mr. Upton. Is there fairly universal agreement that, when 
you go to an appliance store, whether it be Best Buy or 
someplace else, that, in fact, the labels on those appliances, 
whether they be air conditioners or freezers, or whatever it 
is, are sufficient for the consumer in terms of what that 
energy savings is going to be?
    Mr. Simmons. I don't know, I don't know the answer to that 
question.
    Mr. Upton. Have you heard any complaints? I mean, it seems 
like the labeling is pretty apparent.
    Mr. Simmons. The labeling is very apparent with the 
EnergyGuide standard that the Federal Trade Commission puts on 
them, using our data. Is that sufficient? I don't know. That is 
a really good question.
    Mr. Upton. OK. Mr. Chairman, I yield back. Thank you.
    Mr. Rush. The Chair now recognizes Mr. Peters of California 
for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman.
    And I thank the Assistant Secretary for coming before the 
committee.
    Many of the policies under your portfolio are debated here 
in DC. I think there is a widespread recognition that energy 
efficiency is something that can be a bipartisan issue. In 
California, with the buying power of nearly 40 million people, 
our energy efficiency goals support the notion that we could do 
much more at a Federal level.
    In these meetings, we sometimes get caught up in the law 
that exists and how to administer it. I just want to take a 
minute to ask you if there are ways you think that the Congress 
could help support more energy efficiency, either by enacting 
new legislation or by fixing legislation that you are having to 
deal with. Are there things that you are seeing that we could 
be doing better to promote energy efficiency?
    Mr. Simmons. Well, when it would come to legislative 
changes, that would need to go through the appropriate process, 
which, unfortunately, wouldn't just be me today. But one of the 
things that I would like to stress is Congress provides robust 
funding to the Building Technology Office, which does research 
and development on looking at new building technologies, such 
as solid-State heating and cooling for next-generation 
appliances. We will be announcing the funding opportunity from 
the Building Technology Office for a number of different topics 
in the next few weeks.
    And so there is the regulatory angle, but, then, there is 
also the R&D angle. And I think that we consider both. Off the 
top of my head, I don't have any statutory changes, but I would 
be happy to go back to the Department and to work on some 
ideas.
    Mr. Peters. Well, the reason I am asking you is that this 
is the process for finding out if we need to make legislative 
changes. You are in a position to observe kind of how the 
administrative rules that have been set up by prior Congresses 
and rulemaking are working. So I just want to give you the 
opportunity, if you see anything that you think needs to be 
improved or any way in which you are restricted from doing what 
would best serve energy efficiency, I want to give you that 
chance. If you don't have that today, that is fine, but I think 
this is the right place to do it, if you have those suggestions 
for us.
    Mr. Simmons. And I will be happy to try to provide some 
comments in the questions for the record on that.
    Mr. Peters. OK. I appreciate it. I mean, it is sort of a 
left-field question maybe, but any thoughts on that would be 
helpful to us.
    Mr. Simmons. Sure thing.
    Mr. Peters. I also want to reiterate what Mr. Upton said, 
that the integrity of the labeling and the measurements for 
appliances is going to be very important. There are some 
discussion of whether we should have market incentives that 
would encourage consumers on their own to make purchases with 
energy savings in mind, if a carbon tax would be an appropriate 
price signal through the economy. But if they don't have the 
right information about those appliances, it is not going to be 
as efficient as, theoretically, people think it would be. So 
again, I appreciate working with you to make sure that those 
labels are correct and that your information is relied on. It 
is by the FTC, I guess, is that right?
    Mr. Simmons. Yes, yes. And I use those labels when I look 
at new products and I am figuring out what to put in our house. 
I hope they are accurate. I haven't heard that they are not. 
But it is definitely an area where there could be research.
    Another part is with the ENERGY STAR labeling program to 
label the products that are the most energy-efficient. We work 
on that with the EPA.
    Mr. Peters. Right.
    Mr. Simmons. And that labeling has very high adoption and 
is very much appreciated by consumers.
    Mr. Peters. Since you brought it up, I mean, you don't 
directly administrate it, but do you have comments on the 
ENERGY STAR program?
    Mr. Simmons. Well, we jointly administer it with EPA. I 
don't have any comments on ENERGY STAR today.
    Mr. Peters. All right. Well, thank you.
    Mr. Chairman, I yield back.
    Mr. Rush. The gentleman yields back. The Chair now 
recognizes the ranking member of the full committee, Mr. 
Walden, for 5 minutes.
    Mr. Walden. Thank you, Mr. Chairman.
    And again to our witness, thank you, Mr. Simmons, for being 
here.
    I want to follow up on what our colleague from southern 
California was talking about because I think it is important 
for both sides of the aisle. Congress bears some responsibility 
here. We write the laws that you get to administer, and 
sometimes we don't always get it right.
    Over the last few years, the committee has conducted some 
pretty rigorous oversight and we have received testimony that 
highlights the importance of EPCA modernization. So I would 
just pose it this way: I understand you can't take positions on 
legislation initially sitting there right today. But will you 
commit to working with the committee by providing your comments 
and technical assistance as we work to modernize this law?
    Mr. Simmons. Yes, definitely.
    Mr. Walden. Thank you, because I think that would be really 
helpful. You have got the technical people, and we are going to 
write the law, and we both want to get it right for consumers.
    I have got a couple of questions. Like you, when I buy new 
appliances for my home, I look at those ratings. They are 
helpful. I think the more we can empower consumers to make the 
right choices to save energy, reduce emissions, and cut costs 
is a good thing for the country and for the world. I just have 
a couple of questions, since I have you here, about how all 
that works.
    When you are doing this analysis on various appliances, 
whether it is a water heater or a washer or dryer or an air 
conditioner, is that based on more than one sort of temperate 
zone? I mean, is it all based out of savings in Arizona or 
savings in Michigan? How does that work? I know it is an 
average. I get that. But our power costs in the Northwest, 
thankfully, are a little lower than some parts of the country, 
but our climate is different, too. So as a consumer, what 
should I know about that labeling?
    Mr. Simmons. Well, with the labeling, I think it can be 
kind of difficult because on like the EnergyGuide label, I 
believe it is the average electricity rates in the entire 
country. Since you are from Oregon, Oregon has a lot of hydro 
and has some of the lowest electricity rates in the country. So 
those numbers are kind of high for----
    Mr. Walden. And lower emission rates, too, just to stick it 
into the record.
    [Laughter.]
    Mr. Simmons. Correct. And so that is a challenge with those 
kind of labels in a place like Oregon.
    Mr. Walden. Yes.
    Mr. Simmons. They are going to overrepresent the amount of 
electricity, for example, that people would save because that 
is a national average. For various products such as furnaces, 
we do look at performance in different zones of the country 
because a furnace that is for the Northeast doesn't necessarily 
need to be as efficient because--well, it needs to be more 
efficient, I should say, than a furnace that is in Atlanta, for 
example.
    Mr. Walden. Right, where it wouldn't be used as much.
    Mr. Simmons. Where you might not have to use it very many 
hours out of the year.
    Mr. Walden. Right.
    Mr. Simmons. And so the payback is different. So we do 
consider different climate zones. I believe some of the 
analyses that we do have seven different climate zones, if I am 
not mistaken.
    Mr. Walden. OK. And is that reflected on the labels then?
    Mr. Simmons. That is not reflected on like the EnergyGuide 
label, I do not believe.
    Mr. Walden. So as a consumer, how would I know, then, the 
differences that may occur in these seven zones, if it is 
seven?
    Mr. Simmons. Some products may not be available in your 
area, for example, but I am not sure of how a consumer would 
know which zone they are in, as well as what the energy prices 
are in that part of the country.
    Mr. Walden. Yes. You would think, with today's Information 
Age technology, you could have a code that you could scan, and 
it would link to a database or something and give you more 
realistic data.
    I will probably get myself in real trouble here, but when I 
shop for a car and look at the miles per gallon that EPA says 
that car is going to get, I have yet to have had that actually 
work out that way. And so I think, as a consumer, I want labels 
I can trust and data that I know I can factor into my 
equations. And so that would be something I would love to work 
with you on.
    Mr. Simmons. OK.
    Mr. Walden. We want it to be practical, too. I get that. 
But the cost of energy is really important, and I know the 
Green New Deal was just evaluated to drive up electricity costs 
by 22 percent. So if they are going to march forward with that 
proposal, it is going to become even more important that we 
look for ways to save energy everywhere we can, if they are 
going to drive up energy costs 22 percent for American 
consumers. That seems like a pretty big hike in energy costs.
    With that, Mr. Chairman, I appreciate the hearing.
    And, Mr. Simmons, thanks for being willing to take on this 
task, and we look forward to working with you in a bipartisan 
way on technical assistance, as we work to improve this 
program. It is really important to consumers.
    Mr. Simmons. Thank you.
    Mr. Walden. Thank you.
    Mr. Rush. I want to thank the ranking member. The Chair now 
recognizes the chairman of the full committee, Mr. Pallone, for 
5 minutes.
    Mr. Pallone. Thank you, Chairman Rush.
    In the last two years, the Department has blown through 16 
legally-mandated deadlines to finalize changes for appliances. 
Instead of updating these standards, DOE has spent this time 
crafting a draft rule to get rid of efficiency standards for 
light bulbs that are projected to save the average household 
$100 per year on its electricity bill in 2025.
    Now I sent a thorough letter to Secretary Perry in November 
of last year asking for, among other items, documents related 
to the Department's schedule for action on appliance standards 
rulemakings that are overdue. And what I received in response--
and I actually have a copy of it here, Mr. Chairman; I'll ask 
unanimous consent to put it in the record--this was the 
response.
    Mr. Pallone. It was a three-line letter that said, quote, 
``Attached is a list of hyperlinks,'' and that was followed by 
five pages of links to different portions of the DOE website. I 
think, honestly, sir, this ranks up there as one of the most 
disrespectful and uncooperative letters I have ever received 
from a Federal agency.
    I, then, resent the letter last month. And while the 
response this time around was more accommodating, it still left 
many questions unanswered. One of the items that DOE provided 
was the December 2018 Report to Congress. That is this document 
that contains, in my opinion, no useful information about what 
actions DOE has taken on these 16 products. It simply states, 
and I quote, ``in development'' for many of them. Frankly, 
unless I am shown otherwise, I am going to assume that ``in 
development'' means that the Department hasn't done anything.
    So my question is, Mr. Secretary Simmons, will you commit 
to finishing these standards that the DOE is legally mandated 
to update? And I am just looking for a yes or no. Will you 
commit to finishing these standards----
    Mr. Simmons. Yes.
    Mr. Pallone [continuing]. That are legally mandated?
    Mr. Simmons. Yes.
    Mr. Pallone. OK. Will you finish them in six months?
    Mr. Simmons. Probably not.
    Mr. Pallone. How about by the end of the year?
    Mr. Simmons. Some will be, some are possible, but it is 
important that we meet our legal deadlines, but it is also 
important that we meet these substantive requirements of EPCA.
    Mr. Pallone. Well, look, I want to say----
    Mr. Simmons. And there are many substantive requirements.
    Mr. Pallone. I know; I understand, but, it just seems to me 
you are not going to follow the law. The law says that you have 
deadlines. If you had said six months, I would have said OK. 
And then, I say the end of the year; you say, ``I don't know, 
maybe.'' To me, that is a clear indication that there is not a 
serious effort here. I think that we really need to see some 
action now to update and finalize these critical efficiency 
standards because they save consumers money and reduce 
greenhouse gas emissions.
    I have one more question, Mr. Simmons. I am going to shift 
gears to quote from a letter for the record we received for 
today's hearing, which I would ask to be included in the 
record. I would ask unanimous consent, Mr. Chairman.
    This is from Alexander Karsner, who was the Assistant 
Secretary for Renewable Energy under President Bush.
    Mr. Rush. Hearing no objections, so ordered.
    Mr. Pallone. Thank you, Mr. Chairman.
    [The information appears at the conclusion of the hearing.]
    Mr. Pallone. Let me just quote from this, and then, I am 
going to ask you a question, Mr. Simmons. This is a quote from 
that letter. ``I want to affirm to all the members of this 
subcommittee today that there is no basis in science, 
technology, policy, or economics for these new proposals for 
the administration to roll back progress or to undermine 
bipartisan lighting standards. The administration's proposals 
are measurably harmful to consumers, to markets, and to the 
environment. Further, there is no reason for the Department to 
continue missing statutory deadlines to promulgate new 
efficiency standards and remain in compliance with the will of 
Congress. These hurdles have been overcome already, and the 
failure to continue progress simply reflects a lack of acumen, 
denying the benefits of innovation for the many, in favor of 
the profits of a few.''
    As I said, this is not from a national environmental group 
or a major consumer nonprofit. It is a letter from Alexander 
Karsner, who was Assistant Secretary from 2006 to 2008 during 
the George Bush administration. Basically, Mr. Karsner held 
your job under President Bush, and he finds it hard to 
understand why DOE has missed so many standards.
    Do you have any response to that comment by Mr. Karsner, 
Mr. Simmons?
    Mr. Simmons. Sure. I don't know that he has read the law.
    Mr. Pallone. OK. Well----
    Mr. Simmons. As in, we took this action----
    Mr. Pallone. That is pretty sorry.
    Mr. Simmons [continuing]. Because it most closely conforms 
with the statute. It most closely conforms with the text of 
EPCA. That is the reason that we did it. You can make all the 
other arguments, but we need to do this because it is the most 
legally supportable.
    Mr. Pallone. Well, I think it is pretty sad. Quite frankly, 
the record of the appliance and equipment standards program 
under the Trump administration is dismal, and I think it is 
time for the Department to step up to the plate and begin 
acting on these standards. It doesn't seem like you will, but, 
hopefully, you will.
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair wants to thank the full committee 
chairman. The Chair now recognizes Mr. Latta of Ohio for 5 
minutes.
    Mr. Latta. Well, thank you, Mr. Chairman.
    And, Mr. Assistant Secretary, thanks very much for being 
with us today.
    My first question is, why is it important to establish a 
threshold for significant energy savings?
    Mr. Simmons. Sure. We did an analysis and we looked at the 
rules that we have done in the past and how much energy savings 
there has been for those rules. What it turns out is that 60 
percent of the rules that we did resulted in 96 percent of the 
overall energy savings. What that means, if you look at it on 
the flip side is that we spent 40 percent of our time on rules 
where we only saved 4 percent of energy savings overall. So 
that is an issue.
    What the difference is, is that on rules where you save 
over .5 quads over 30 years, that is rules where you save over 
.5 quads over 30 years, those are the 60 percent of rules that 
resulted in 96 percent of the savings. So what we want to do is 
to make sure that we are saving over .5 quads in a rule, 
because those are the rules where there is the most bang for 
our buck, the most energy savings for the time that we spend on 
it. And so it is critical to focus our efforts there because I 
believe it will help us meet our regulatory deadlines as well 
as making sure that we have rules that are substantively 
defensible.
    Mr. Latta. Thank you.
    One of our witnesses in the next panel specifically 
mentioned the example of DOE's proposed standard for 
dishwashers and how the standard was such that dishwashers 
could no longer get the job done. It is a good example of 
something I would like to make sure DOE was taking into 
consideration. How will DOE ensure that a proposed standard 
does not and will not negatively impact a product's 
performance?
    Mr. Simmons. So this is a very important issue because we 
are forbidden by statute to impose a standard that would 
decrease performance or reduce product features. However, there 
are some examples where reasonable people could disagree. One 
of the things, for example, where we have found it is a feature 
is on an oven, whether or not there is a window. We have found 
that that is a feature, but people can and have disagreed over 
things such as whether the venting for a water heater, is that 
venting a performance feature or not? So this is an important 
area for us to look at. It is important for us to ask questions 
of the public, of stakeholders, to make sure that we have rules 
to make sure that products are doing a good job of saving 
people's time, because people's time is an important----
    Mr. Latta. I think it is important because, again, this is 
from a dishwasher or a washing machine, or something else, or a 
dryer, that someone finds that you have to keep pressing the 
button to get something done. So actually, in the end run, you 
are losing more energy because you have to keep using that 
product, the appliance over and over and over. So I think it is 
really important that DOE takes that into consideration.
    Let me move on. In your proposed update to the process 
rule, one of the new changes, it would make the process rule 
binding on DOE. My understanding is that this will mean that 
DOE will be required to follow the process and requirements 
established in the process rule when proposing future energy 
efficiency standards. Is that correct?
    Mr. Simmons. That is correct, yes.
    Mr. Latta. OK. And could you please explain why the 
Department believes that this is a necessary change in the 
process rule then?
    Mr. Simmons. Sure. So when the process rule was started in 
1996, one of the key features is that you have test procedures 
before you have--you finalize a test procedure. You know how 
you are going to measure energy before you set the standard for 
the energy or before you have a proposal for setting the 
standard for energy consumption. That wasn't always followed. 
And as a result, it becomes difficult to understand where the 
standards should be if you don't know what the test is. Because 
that had been messed up in a number of rules or there had been 
a lack of following that procedure, we wanted to emphasize that 
that procedure is very important, so that we get the substance 
of the rule correct.
    Mr. Latta. Well, thank you very much, Mr. Chairman. I yield 
back the balance of my time.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes Mr. McNerney for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. The gentleman from 
California assumes the microphone.
    Thank you for your testimony this morning, Mr. Simmons. And 
I appreciate your point about focusing on standards that have 
the most impact in terms of energy savings. However, by not 
regulating appliances with less than half a quad of energy, you 
are, in effect, causing consumers to pay increasing electricity 
costs, wouldn't that be true?
    Mr. Simmons. Well, not necessarily. Let me be clear about 
what it is. It is half a quad of savings or, then, 10 percent. 
So even if it doesn't meet the half-a-quad savings, if there is 
a product that we could still achieve a 10 percent increase, we 
would also increase, could increase the standard for that 
product as well.
    Mr. McNerney. OK. That may be true, but, still, you are 
leaving a lot of products without standards, and that is going 
to cause consumers to pay more for their electricity. And this 
would, in fact, impact the lowest-income Americans, given the 
elasticity of electric spending. So we are doing consumers a 
disservice here.
    Also, my understanding of the Energy Policy Conservation 
Act of 1975 is that it identifies products that DOE should set 
standards for energy efficiency and update them every seven 
years. But you are now saying that the DOE will not update any 
standards unless they meet your process rule. This violates the 
Congress' intent of constantly updating standards. What is your 
response?
    Mr. Simmons. No matter what--I mean, I think that is a 
misinterpretation of what we are saying in the process rule. 
Because we have to meet the statutory requirements, regardless 
of the process rule. Because we understand that the process 
rule is not allowable us some kind of loophole to not follow 
EPCA.
    Mr. McNerney. So does the process rule state that it will 
not update any standards unless they meet the process rule? I 
mean, isn't there some sort of a block here?
    Mr. Simmons. No, the process rule is saying that we will 
review the standards and we need to make sure that it meets the 
requirements in EPCA.
    Mr. McNerney. So by reviewing standards, it doesn't mean 
updating standards and upgrading standards?
    Mr. Simmons. And EPCA does require us to update standards. 
For example, at the end of the previous administration--and we 
have the Acting Assistant Secretary at the time here--the Obama 
administration did not update the standard for dishwashers. And 
I am sure Mr. Friedman can talk to you about that.
    Mr. McNerney. OK.
    Mr. Simmons. Update? Did not increase the standard for 
dishwashers, I should say.
    Mr. McNerney. OK. Should we be expanding the amount of 
covered products, moving away from dishwashers and 
refrigerators to routers and telecommunications products?
    Mr. Simmons. Well, it is not the position of the 
administration to expand the scope of covered products.
    Mr. McNerney. And these products are often called vampires 
because they sit there and they consume power 24 hours a day, 
whether they are being used or not. So I think there is a need 
to be looking at those kinds of products as well.
    Mr. Simmons. One note on that is that the industry for 
dealing with set-top boxes did a voluntary program, so that 
your DVR, your set-top boxes for TVs, to voluntarily set a 
standard for set-top boxes, so that they improve the energy 
efficiency. And they have dramatically increased the energy 
efficiency of those products through a voluntary program.
    Mr. McNerney. I am a little skeptical of voluntary programs 
with these industries.
    But I don't have any more questions, Mr. Chairman.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes the gentle lady from Washington State, Mrs. McMorris 
Rodgers, for 5 minutes.
    Mrs. Rodgers. Thank you, Mr. Chairman.
    First of all, congratulations on your appointment----
    Mr. Simmons. Thank you.
    Mrs. Rodgers [continuing]. And confirmation to serve as 
Assistant Secretary for Energy Efficiency and Renewable Energy.
    The Obama administration published new efficiency 
regulations at a record pace. The current administration 
appears to be taking a more deliberative and focused approach 
to achieve the maximum improvement in energy efficiency that is 
also technologically feasible and economically justified.
    I wanted to ask you to speak to the vision, your vision, 
for DOE's appliance standards program in general.
    Mr. Simmons. Overall, the most important thing to me is 
that we are meeting our legal requirements. That is what 
matters. And those legal requirements are the deadlines, but 
they are also the substantive requirements in the statute. The 
way that I think that we do the best job of meeting those 
substantive requirements is to follow the process laid out in 
the 1996 process rule, and I think it is, hopefully, improved 
with our proposed updates to the process rule. It is important 
to follow the law. I am a member of the Executive Branch; my 
job is to execute the law, and that is our number one priority.
    Mrs. Rodgers. I certainly appreciate hearing that from 
anyone in the Executive Branch.
    Another question. The appliance standards program has been 
around for decades. Is it true that many home appliances have 
already been subjected to three, or even more, rounds of 
successively tighter standards?
    Mr. Simmons. Yes.
    Mrs. Rodgers. Does the law require DOE to continue 
tightening these standards with no end in sight, even if you 
are seeing substantially diminishing returns?
    Mr. Simmons. So what the law requires, a maximum 
improvement in energy efficiency that is technically feasible 
and economically justified. That is what we are required to 
look at. That doesn't mean that the standard has to be 
increased, particularly where a product has been regulated 
multiple times and there just isn't as much energy efficiency 
to squeeze out. Now, that said, we are working on research and 
development, so that there could be more headroom for 
opportunities for the future, as in things such as solid-State 
lighting. That is a good example of R&D creating more efficient 
products over time.
    Mrs. Rodgers. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Rush. The Chair thanks the gentle lady. Now the Chair 
recognizes the gentleman from New York, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chairman.
    Assistant Secretary, welcome, and thank you for your 
testimony.
    I want to echo my colleagues' concerns over DOE's 
implementation of the standards program since 2017. DOE 
investments and policies have resulted in once unfathomable 
cost reductions in LED lighting, somewhat an American 
technology success story, with the United States now leading 
the world in LED technology. These bulbs are available in the 
same shapes as the incandescent and halogen bulbs they replace 
and produce the same quality of light much more efficiently. 
This is the energy innovation all Members claim they want.
    So, Mr. Secretary, do you have a sense of those cost 
reductions over the last decade?
    Mr. Simmons. Over the last decade, I believe it is greater 
than 90 percent for LED lighting.
    Mr. Tonko. Which is a great bit of success. Certainly, 
Federal R&D investments have played a role, but is it fair to 
say that at least some of this cost reduction can attributed to 
market conditions created by energy conservation standards?
    Mr. Simmons. It could be.
    Mr. Tonko. I would say that it is probably more than some, 
and that these kinds of savings are achievable precisely 
because we have had a robust energy conservation standards 
program. So, Mr. Secretary, is it accurate that LED replacement 
bulbs are widely available, use less than one-quarter of the 
amount of energy to produce the same amount of light, and can 
last as long as 10 years?
    Mr. Simmons. Yes.
    Mr. Tonko. So I would like to unpack two issues from the 
February Notice of Proposed Rulemaking. In 2007, in a law 
signed by President Bush, Congress included a backstop light 
bulb standard to ensure a minimum level of savings starting in 
2020. Since DOE did not act by the 2017 deadline, can you 
explain why some officials have suggested that the statutory 
backstop hasn't been triggered?
    Mr. Simmons. Sure. So on the backstop there, it requires us 
to first make an assessment. We were forbidden from doing that 
through an appropriations rider for years. We were not allowed 
to expend funds to do the work necessary to make that finding. 
And without making the finding, then the backstop doesn't 
happen or----
    Mr. Tonko. So what happens, then, in January of 2020?
    Mr. Simmons. Well, currently----
    Mr. Tonko. What does this mean in that regard?
    Mr. Simmons. Currently, the backstop would not kick in 
because we haven't done the condition precedent.
    Mr. Tonko. Isn't that against the law, the letter and 
spirit of the law?
    Mr. Simmons. We were forbidden from doing the work 
necessary to make the finding by the law by appropriations law.
    Mr. Tonko. So I think the concerns for affordability and 
energy efficiency enhancement are then lost because of that.
    The second issue is that the proposal would change the 
definition of general service lamps to exclude certain shapes 
of bulbs that go into almost half of America's light sockets 
from the 2020 standard. You have spoken about energy 
affordability, and I share that goal, but can you explain how 
this proposal promotes energy affordability?
    Mr. Simmons. Well, first and foremost, the proposal 
complies with the law, and that is the most important thing, as 
in it could save all the money in the world, but if it is 
illegal and we get sued, we would lose. And so first and 
foremost, our definitions are the statutory definitions of what 
is a general service lamp.
    Second of all, as I noted earlier, I truly believe that the 
future is solid-State lighting, LEDs and other lights in the 
future, other types of lighting such as OLEDs. And many of 
these lights are available today, and I believe--well, I 
believe--I know that there is massive uptake of consumers 
purchasing even the lights that are not defined as general 
service lamps.
    Mr. Tonko. But if the letter and spirit of the law is to 
address affordability and energy efficiency growth, why 
wouldn't we just embrace that opportunity to have that much 
more available for consumers and consumers' savings?
    Mr. Simmons. We can only do what we are legally allowed to 
do, and this is an area----
    Mr. Tonko. Well, but the law also says there cannot be any 
rollback in progress.
    Mr. Simmons. Which there has not been. What there has been 
is a change in definition.
    Mr. Tonko. But it is a rollback if you have all of this 
opportunity now with this additional amount of sockets. These 
are huge savings for the consumer, for households, and an 
improvement in energy efficiency.
    Mr. Simmons. Well, and I believe that the vast majority of 
consumers are going to achieve those savings because many of 
those products are currently on the market and people will 
purchase LEDs. I mean, that is the trend in the market today.
    Mr. Tonko. Could some people conclude that that was a 
backsliding, that you denied those opportunities that were 
enhanced in 2017?
    Mr. Simmons. Well, the Department does not think so.
    Mr. Tonko. Well, do you think so?
    Mr. Simmons. Now NRDC is on the next panel. They might have 
a different opinion on that probably.
    Mr. Tonko. But do you think so?
    Mr. Simmons. No.
    Mr. Tonko. Do you think that is a backsliding?
    Mr. Simmons. I and the Department do not.
    Mr. Tonko. Do you see it as a denial of a great amount of 
efficiency improvement?
    Mr. Simmons. There could be efficiency improvement, yes.
    Mr. Tonko. Could be?
    Mr. Simmons. There would be efficiency improvement.
    Mr. Tonko. So you would deny that?
    Mr. Simmons. Well, I am a little bit lost in terms of what 
I would be affirming or denying. But I am not sure about the 
exact question, sir. I'm sorry.
    Mr. Rush. The gentleman's time has expired.
    Mr. Tonko. I yield back, Mr. Chair.
    Mr. Rush. The Chair now recognizes my good friend from the 
State of West Virginia, the one and only Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman.
    And thank you, Mr. Simmons, for appearing before us.
    Yes, I look down the dias and I look at some of the folks 
that I have worked with in the last seven or eight years on 
energy efficiency, with Peter Welch and Tonko. We have put 
several things together, and I think we have been successful. 
And I like working on energy efficiency. As one of just two 
engineers in Congress, it makes a lot of sense for an engineer 
to be involved in this.
    But one of the issues that I don't understand, from the 
previous administration we couldn't get any traction. I am 
curious to see whether or not in the efficiency--we make our 
buildings more and more, particularly homes, they are probably 
the most demonstrative way that we can see that they are 
improving on energy efficiency. But, in so doing, the previous 
administration, they turned their back. The previous groups 
have turned their back on the indoor air quality. Because the 
more efficient, the more tighter we make our buildings, the 
less we are having fresh air and air turnovers.
    So I am curious to see how you are going to reconcile 
energy efficiency and a healthy environment on the inside of 
our buildings. Because we know that if we do the two to five 
air turnovers in any one given room, it is going to increase 
the utility cost to the consumer at that point. And what they 
do in schools, they just turn that off; they don't use that. So 
we are putting our children and our homeowners in unhealthy 
situations. Yes, we are efficient from a cost standpoint, but 
from a health standpoint we are cutting corners.
    Is this administration, are you all going to be 
addressing--I don't know whether this comes up under your 
purview, your jurisdiction, or is this someone else within DOE 
that we would be talking to?
    Mr. Simmons. It is my purview, and it is an issue that we 
take seriously, to make sure that we are looking at ways, both 
indoor air quality issues such as mold, when you have much 
tighter homes than we have had in the past. But we need to look 
at the health of the environment to make sure that, as we are 
increasing the energy efficiency of our homes, that we are not 
leading to unintended negative consequences.
    Mr. McKinley. I don't think you are denying that it is 
causing some consequences.
    Mr. Simmons. Oh, sure, sure, sure.
    Mr. McKinley. But we could not get the previous 
administration to address this. We know that you spend 90 
percent of your time indoors. And without the air turnover, you 
are breathing fumes, you are breathing diseases. They say, even 
with measles, the molecules are in the air for what, three days 
after a person has left the room. I just wonder what we are 
doing, how we are going to reconcile the combination of the 
two.
    Do you think you are going to come out with something that 
might pass on recommendations or thoughts to ASHRAE to change 
or modify their standards? Or what are we going to do for our 
school systems about getting, as high efficient as they are, 
but, yet, they are putting our children in unhealthy 
environments? How do you think you are going to come out 
through this?
    Mr. Simmons. I don't know. However, I know that our 
Building Technology Office is thinking about this issue, and I 
will be more than happy to have them discuss the issues, where 
we currently are, what we are currently doing, with you as well 
as any of your staff, or whomever else, to make sure that we 
are really considering the health of the environment indoors.
    Mr. McKinley. I would appreciate if you would get back to 
me.
    Mr. Simmons. OK.
    Mr. McKinley. Putting aside for now, even though that is 
something I want to focus on, indoor air quality, what do you 
think is the most underutilized efficiency project that a 
homeowner could undertake? What would be the one you think that 
would help the most?
    Mr. Simmons. The answer is going to be somewhere around 
heating and cooling, whether it is the HVAC system. Because 
lighting, as efficient as lighting is now, it is now consuming 
a smaller and smaller part of people's overall electricity 
bill. So something around probably HVAC systems, if not water 
heating.
    Mr. McKinley. OK. I yield back. Thank you.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes Ms. Kuster of New Hampshire for 5 minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman.
    And thank you to Mr. Simmons for appearing before us. We 
appreciate it.
    Today's topic touches on every single American household 
and business. Energy efficiency standards for home appliances 
have helped American families save billions of dollars in 
energy costs over the past 30 years. And that is why I am so 
disappointed that the Department of Energy has failed to 
publish new energy efficiency standards, thereby violating the 
Department's statutory obligations under the Energy Policy and 
Conservation Act.
    According to DOE's own analysis, efficiency standards have 
helped American families save $63 billion on their utility 
bills in 2015. The Department's failure to update efficiency 
standards is costly and will come at the expense of American 
families' pocketbooks, public health, and the environment.
    Mr. Simmons, I want to ask a series of just basic questions 
to understand the theory behind the delay. Would you agree that 
improved efficiency standards for home appliances have 
dramatically reduced carbon pollution in the United States?
    Mr. Simmons. Yes.
    Ms. Kuster. And would you agree that improved efficiency 
standards for home appliances have dramatically reduced 
aggregate home energy costs for families?
    Mr. Simmons. They have helped.
    Ms. Kuster. And would you agree that reduced carbon 
pollution is beneficial to public health and reducing rates of 
asthma and cardiovascular disease?
    Mr. Simmons. I might disagree on that one, as in carbon 
dioxide----
    Ms. Kuster. Do you not believe that lowering carbon 
pollution is helpful to the public health?
    Mr. Simmons. What I wanted to----
    Ms. Kuster. I am an asthma survivor. So I am just 
wondering----
    Mr. Simmons. I am saying that carbon dioxide does not cause 
asthma.
    Ms. Kuster. But don't you believe that pollution in our 
air, including carbon, increased carbon--or lowering carbon 
would improve upon the quality of air that we breathe and lower 
asthma rates?
    Mr. Simmons. Yes, for things such as particulate matter, I 
think that could help reduce asthma. But we have seen increases 
in asthma rates as our air quality has improved over time. So I 
am not sure what is generating this increase of asthma rates 
over time. That is what I am trying to say.
    Ms. Kuster. OK. And why would your Department fail to issue 
energy efficiency standards that could help us improve the 
quality of health, improve the quality of life, and save our 
planet?
    Mr. Simmons. So one of the things that is very important 
for the President is for there not to be unnecessary regulatory 
burdens.
    Ms. Kuster. Well, let me ask you this.
    Mr. Simmons. And so where we are not required----
    Ms. Kuster. Do you agree that it would improve the quality 
of our life if we save--you have said--let me go back--you have 
said that improved energy efficiency standards dramatically 
reduced aggregate home energy costs? On that, we have agreed. 
And you have said that you agree that reduced carbon pollution 
is beneficial to public health. You had a debate about the 
asthma. I do understand that. But would you agree or not--maybe 
you don't agree--do you agree that better energy efficiency is 
better for quality of life for American families?
    Mr. Simmons. Yes, on that, I will definitely agree. The 
better energy efficiency, it is one of the reasons that we 
spend millions of dollars a year doing research and development 
in the Building Technology Office to improve energy efficiency 
overall.
    Ms. Kuster. So if we can agree on that--well, let me start 
with this. Is it correct that the Department of Energy has 
missed 16 legal deadlines for new energy efficiency standards 
for products?
     Mr. Simmons. I believe so.
    Ms. Kuster. And does the Department of Energy believe it no 
longer has to comply with statutory obligations under the 
Energy Policy and Conservation Act?
    Mr. Simmons. No.
    Ms. Kuster. So if you agree that the Department of Energy 
should comply, then why is your Department engaging in the 
delay? That is what I am trying to get to.
    Mr. Simmons. We are not engaging in the delay. We are 
working through the process that is required for each and every 
one of the products that we are required to regulate. That is a 
process----
    Ms. Kuster. But despite missing 16 legal deadlines?
    Mr. Simmons. Despite missing deadlines, we are working 
through that process. The process is ongoing, but I 
definitely----
    Ms. Kuster. What is it that we can do to help you and your 
Department comply with these legal deadlines? Is it a question 
of lack of resources? What is it that you need from Congress?
    Mr. Simmons. It is not a----
    Ms. Kuster. Because we want to improve the quality of life 
for our constituents. We want them to save money, not just low-
income people, but all people. My husband and I spend quite a 
bit of time when we are choosing an appliance for our family, 
to get the most energy-efficient, cost-effective--I live in New 
Hampshire. It is cold. Energy costs are high. I try to get the 
best deal for my family. What can we do to help you, so that we 
can help all Americans get that best outcome?
    Mr. Simmons. So I don't have a--we have sufficient 
resources. I have not heard from the program that we need more 
resources. What we do need to do is to work through the 
process.
    Ms. Kuster. Do you think there is a lack of will in this 
administration?
    Mr. Simmons. There is a----
    Ms. Kuster. Because you keep falling back on the process.
    Mr. Simmons. The process takes----
    Ms. Kuster. I am wondering if there is a lack of will.
    Mr. Simmons. The process takes a lot of time, and it is 
not--like I have not heard from the----
    Ms. Kuster. I yield back.
    Mr. Rush. I want to thank the gentle lady. And I also want 
to extend my apologies to her for misidentifying her state. She 
is from New Hampshire.
    Ms. Kuster. And I apologize for not keeping a better eye on 
the clock.
    Mr. Rush. Yes, ma'am.
    All right. The Chair now recognizes the gentleman from the 
great State of Illinois, Mr. Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thank you for 
yielding.
    Sir, thank you for being here. Congratulations.
    It kind of feels reminiscent. When we had a prior 
administration, we were talking about deadlines a lot. It is 
just the process. Sometimes it takes some time, and we 
appreciate you and your staff diligently working through these.
    I think it is safe to say that every member of this 
committee shares some common energy goals, including cleaner 
emissions and cost savings for our constituents. Of course, 
like most issues in DC, the devil is in the details, and it may 
seem to those watching or listening back home that the two 
parties stand against one another on the issue of energy 
efficiency and the environment. So I would just like to state 
for the record that, as we begin debate in earnest on these 
important issues, I am willing to work in a bipartisan fashion 
to address these issues. Most people, if not everybody, is. 
Provided that we can stick to facts, we can avoid some of the 
unnecessary partisanship and engage in logical conversations.
    This hearing is focused on energy efficiency standards, for 
which I have a longstanding record in support. But we are 
currently grappling with a set of laws that, through subsequent 
regulation and court proceedings, have become unclear, to the 
detriment of consumers and industry alike.
    When the industries that manufacture energy-efficient 
consumer products are uncertain about the application of laws 
and regulations, it leads to less confidence. The lack of 
confidence can lead to higher production costs. Higher 
production costs are passed along to consumers. And, of course, 
if the consumer is uncertain about the energy saving and cost 
savings benefit of these products, they could either pay more 
for less efficiency or, if they are not so sure, they could 
altogether choose not to buy these energy-efficient products. 
In sum, each of these issues should be thoughtfully addressed 
for the betterment of consumers, the environment, and yes, even 
industry.
    So I would like to give you an opportunity to correct the 
record on some of the claims that are being made here. I 
understand there are about 50 active regulations that DOE plans 
to take action on in the coming year. Is DOE committed to 
following the law and carrying out its responsibilities under 
the appliance standards program?
    Mr. Simmons. Yes.
    Mr. Kinzinger. We are going to hear testimony on the second 
panel that references a high percentage of consumers who 
experience a net cost for newer proposed product standards. In 
other words, the life-cycle cost of the product will be greater 
than the savings from efficiency. Do you believe that 
increasing net cost for consumers fits the goals of the Energy 
Policy and Conservation Act?
    Mr. Simmons. No.
    Mr. Kinzinger. How can DOE do a better job to ensure 
efficiency standards actually lead to consumer savings?
    Mr. Simmons. One of the most important things I think that 
we can do is to have a robust, open, transparent process of 
setting the standards, so that we are making sure to take 
sufficient comment to understand all of the issues around a new 
standard. So that we don't get in situations, or that they are 
as minimized to the greatest extent possible, where we are 
imposing negative impacts on certain classes of consumers.
    Mr. Kinzinger. I think it is important to remember, you can 
impose rules. We are Congress; we can do whatever we want 
imposing rules. What we can't impose is human behavior. So 
human behavior has a reaction to any set of rules. Just like if 
something becomes convoluted, people can choose to go buy 
something else, maybe less energy-efficient and totally 
violates any goals that we have here in the House.
    I have got one other question. When considering the net 
costs, are there other features or performance attributes that 
consumers might lose?
    Mr. Simmons. That can happen. And one of the challenges is 
what gets defined as a feature. That is not always clear. One 
thing that is a perennial issue is venting for furnaces or 
venting for water heaters. Is that a feature? Is that a 
performance feature? And reasonable people can disagree.
    Mr. Kinzinger. And I do have another question. The stated 
mission of EERE is ``to create and sustain American leadership 
in the transition to a global clean energy economy''. The 
vision is a ``strong and prosperous America, powered by clean, 
affordable, and secure energy''. Are you committed to following 
the laws that Congress passes as Congress intends?
    Mr. Simmons. Yes.
    Mr. Kinzinger. Has Congress provided EERE with sufficient 
resources to carry out its responsibilities?
    Mr. Simmons. Currently, yes.
    Mr. Kinzinger. How are you positioning EERE to create and 
sustain American leadership in the years ahead?
    Mr. Simmons. Three things overall for our office to focus 
on generally. The first is energy affordability. We need to 
drive down the cost of all types of energy, as well as the 
things that use energy.
    Number two we need to figure out how to do a good job to 
bring together all of the energy and all of the users of energy 
together into an energy system. We need flexibility in the 
electric grid of the future. I think that that is very 
important. It is the one key thing that the office is focused 
on.
    And then, the third overall priority for my office is 
energy storage, ways to look to have energy storage, especially 
because it can improve that flexibility, so you can have more 
things like more wind or more solar on the electric grid of the 
future.
    Mr. Kinzinger. Thank you. Thank you for your service.
    Mr. Chairman, I yield back.
    Mr. Rush. I want to thank the gentleman. The Chair now 
recognizes the gentleman from Virginia, Mr. McEachin, for 5 
minutes.
    Mr. McEachin. Thank you, Mr. Chairman, and thank you for 
calling this hearing today.
    And to the Secretary, thank you for being here today as 
well.
    Increasing efficiency really means reducing waste, doing 
more with the resources we are already using. And reducing 
waste is an idea that I would think everyone should be able to 
support. Greater energy efficiency offers one of the paths of 
least resistance economically, technologically, and 
logistically for reducing greenhouse gas emissions. So 
strengthening efficiency standards carries significant benefits 
for public health and for our environment.
    Mr. Simmons, in your testimony you speak of DOE's, quote, 
``statutory mandate to establish energy conservation standards 
that achieve the maximum improvement in energy efficiency that 
is technologically feasible and economically justified, and 
that saves a significant amount of energy''. What I would like 
to do with you today is to unpack the meaning of ``economically 
justified''. Because what looks reasonable in one light may 
look unreasonable in another.
    I have introduced legislation to ensure that long-term 
climate impacts are properly weighted in the regulator's 
dollar-and-cents benefit/analysis, and I want to apply that 
same line of thinking here. In determining whether efficiency 
standards for many consumer products are justified, DOE is 
supposed to look at, among other considerations, the need for 
national energy and water conservation and other factors the 
Secretary considers relevant. Energy efficiency, as I have 
said, offers one of the paths of least resistance for reducing 
greenhouse gases. So it seems clear to me that the need for 
national conservation is urgent and great, and that it reflects 
our need to minimize climate change and to mitigate its 
potentially devastating effects. And it seems equally clear, 
given the urgency of the challenges we face, that the current 
and projected state of our climate should be factors the 
Secretary deems highly relevant to the setting of energy 
conservation standards.
    Question: so to what extent does the reality of climate 
change and the climate consequences which we are already having 
to live with influence standard-setting decisions?
    Mr. Simmons. So when we do the economic analysis, one of 
the things that is considered is climate. It was in the 
standards rule set by the Obama administration. That 
consideration is also in the standards rule set by this 
administration.
    Mr. McEachin. So is it fair to say that DOE is grappling 
with the fact that, absence significant increases in energy 
efficiency, our society could face existential threats within 
the lifetime of the folks in this room?
    Mr. Simmons. What we are considering is the impact of 
greenhouse emissions on the climate from the particular rules, 
given that is what our mandate is.
    Mr. McEachin. If I hear you correctly, then, DOE 
acknowledges that climate considerations can and should play a 
role in shaping regulations. Can you speak to why that role is 
not greater? If nothing else, surely the urgency of our climate 
needs is a compelling argument for moving forward on some of 
the standards the DOE has finalized but neglected to publish.
    Mr. Simmons. You mentioned the seven factors that go into 
considering what is economically relevant. The first one is 
economic impact on consumers and manufacturers, lifetime 
operating cost compared to increased cost. Talking about 
consumers is mentioned numerous times in EPCA. Climate is not 
mentioned in EPCA. So while it gets included in the overall 
economic analysis, first and foremost, EPCA is designed to 
focus on consumers currently. Obviously, Congress can change 
that.
    Mr. McEachin. All right. Thank you. Mr. Simmons.
    Mr. Chairman, I yield back.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes the gentleman from Virginia, Mr. Griffith, for 5 
minutes.
    Mr. Griffith. Thank you very much. I appreciate it.
    I am going to head in the same direction of sorts that my 
colleague from Virginia, Mr. McEachin, just touched on, but in 
a slightly different vein, and that is the economically-
justified aspect. Mr. Latta of Ohio previously brought some of 
this up. That is, are the consumers getting the same product, 
even if it is more energy-efficient?
    We had some folks testifying a couple of years ago about 
hot water heaters and they were going to lower the size of a 
hot water heater in an attempt to save energy. And I raised the 
point that if somebody has the money to buy a 100-gallon hot 
water heater, they probably have the money to buy two 50-gallon 
hot water heaters, and are you really making any gain, if you 
just lower the size of the hot water heater?
    Likewise, I have a constituent who has been very upset, 
although this was an EPA rule, about her washing machine 
because they don't work as well now that they have changed the 
rules some time ago. And so accordingly, she either double does 
the wash, in other words, she has two loads where she would 
have had one, or on occasion, when she has time to babysit her 
machine, she adds additional water to her machine because it 
doesn't currently--part of the way they got their efficiency 
was they didn't put as much water in it; therefore, they didn't 
have as much water to heat. Well, she adds extra water to it to 
get around that, so that she can get her clothes clean. And 
there were other problems, mold and other issues, that came up.
    Is that part of what you look at for economically justified 
as well? Is the consumer going to get what they want and are 
they likely to be running their washing machines or their hot 
water heaters or their dishwashers twice as much to accomplish 
the same thing, which actually adds to our energy demand, as 
opposed to reducing it?
    Mr. Simmons. That is, it can be included in whether or not 
something is economically justified. Also, there is another 
statutory provision in EPCA that forbids us from reducing the 
performance or the features of a product. So it is in EPCA. The 
question is, sometimes people can disagree about what that 
means.
    Mr. Griffith. Well, and I heard you mention earlier windows 
in ovens. Tell me what the fight there is.
    Mr. Simmons. There hasn't necessarily been a fight, but 
that is an example of something that is--like is this, deciding 
if that is a feature. And I think that everyone can agree that 
that, nearly everyone can--like we could have more efficient 
ovens if we didn't have a window on them. However----
    Mr. Griffith. Most of your cooks like to look.
    Mr. Simmons. What is that?
    Mr. Griffith. Most of your cooks like to look.
    Mr. Simmons. Exactly, and that is the overall point, is 
that it could be more efficient, but we need to have that 
feature because it is important to the function of the product 
to be able to look and to see if your pie is done.
    Mr. Griffith. Well, and along those lines, if you don't 
have the window, aren't you going to open that door more?
    Mr. Simmons. Yes.
    Mr. Griffith. And couldn't that potentially lead to using 
more electricity?
    Mr. Simmons. It could. Or with dishwashers, if people are 
spending more time washing their dishes by hand and running 
water, that may overall lead to more energy consumption than 
just putting a slightly dirty dish in the dishwasher.
    Mr. Griffith. Got you.
    Well, I appreciate your being here today. I look forward to 
working with you on these issues.
    And I yield back, Mr. Chairman.
    Mr. Simmons. Thank you.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes the gentle lady from Delaware, Ms. Blunt Rochester, 
for 5 minutes.
    Ms. Blunt Rochester. Thank you, Mr. Chairman.
    And thank you, Assistant Secretary Simmons, for being here.
    Your agency is one that oversees some very important 
functions as part of the Federal Government. And I want to 
start by emphasizing the importance of issues to my State of 
Delaware, where we are the lowest mean elevation of any State 
in the country. And consequently, we are on the front lines of 
climate change. And while I know there has been some skepticism 
in the administration about the legitimacy of climate change 
and the sense of urgency that we must have, I can tell you that 
my constituents see it firsthand. From constant beach erosion 
in Sussex County to the changing growing seasons in Kent 
County, to chronic flooding in New Castle County, climate 
change is a top priority for Delawareans.
    As we have mentioned here, your work, energy efficiency, 
focuses on our health. It also focuses on our economy and, as I 
mentioned, the environment. One of the things that we want to 
do here is to be able to attack climate change as quickly as 
possible. And so energy efficiency plays a big role.
    My colleagues have already shared some of their concerns 
about the number of deadlines that have been missed by the 
administration, even though they are mandated by law. But I 
want to shift and ask some different questions.
    Mr. Simmons, in your testimony you submitted to the 
committee you say that one of your top priorities is energy 
affordability. With that priority in mind, do you support fully 
funding and utilizing programs such as LIHEAP, the Low-Income 
Home Energy Assistance Program?
    Mr. Simmons. I don't have anything to do with----
    Ms. Blunt Rochester. Correct.
    Mr. Simmons. I don't have anything to do with LIHEAP.
    Ms. Blunt Rochester. I know it is not under your----
    Mr. Simmons. From the perspective of an administration 
witness, I don't know enough to have a comment on that one. I'm 
sorry.
    Ms. Blunt Rochester. It is an energy efficiency, low-income 
program. How about the weather assistance program? Maybe you 
could talk a little bit about that?
    Mr. Simmons. So you saw in the previous budget that the 
Weatherization Assistance Program was zeroed out in the 
President's proposed budget. The new budget is coming out soon, 
and we will see what is there.
    One of the things that I really wanted to emphasize is 
that, even though the Weatherization Assistance Program was 
zeroed out, that my office worked diligently as soon as funds 
were provided to carry out the mission of that office. And that 
is something that I think is critical. We are executing on the 
monies provided by Congress.
    Ms. Blunt Rochester. Mr. Simmons, in Title X, Chapter 2, 
Part 430, of the Federal Code, there is a specific reference 
made to low-income families and the consideration the 
Department must make when determining standard levels. Like the 
rest of the country, Delaware has seen an increase in the 
number of residents who are now renting, rather than owning 
their own homes. And so obviously, that means that those 
individuals are unable to make decisions to upgrade to more 
energy-efficient appliances but are still often saddled with 
the energy costs of more inefficient appliances. Can you talk 
about what your Department has done with rental properties in 
relation to energy efficiency?
    Mr. Simmons. So overall, the Building Technology Office, I 
don't know if there has been any specific focus on rental 
property as opposed to all property, as, then, trying to 
increase energy efficiency of windows, energy efficiency of 
insulation. As one of the Representatives pointed out 
previously, Mr. McKinley, talking about increasing insulation 
that makes the area, the housing tighter, which can lead to air 
quality issues, but we could put those aside for a minute. We 
are doing a lot of things on research and development. I don't 
know if there has been any specific focus on rental properties.
    Ms. Blunt Rochester. One of the reasons why I ask is 
because, when we don't deal with the standards that impact all 
of us, some of us don't get the same level of support they need 
to be able to be energy-efficient.
    But I want to shift, one last question. Are there strategic 
investments that can be made in an infrastructure policy 
package to accelerate energy efficiency strategies in buildings 
or industrial processes? And if so what are they?
    Mr. Simmons. That is a----
    Ms. Blunt Rochester. I have about 28 seconds.
    Mr. Simmons. Yes.
    Ms. Blunt Rochester. So you could probably submit that in 
writing because I am sure you won't get it all out.
    Mr. Simmons. Exactly.
    Ms. Blunt Rochester. But you can start. You have got 20 
seconds.
    Mr. Simmons. That is just what I was going to say, is that 
one I would have to get back to you in writing.
    Ms. Blunt Rochester. OK. Thank you. I yield back.
    Mr. Welch [presiding]. The Chair recognizes Mr. Johnson 
from Ohio.
    Mr. Johnson. Thank you, Mr. Chair.
    And, Assistant Secretary Simmons, I would like to start off 
by saying right upfront that DOE's work on efficiency standards 
is important. There is a benefit to these programs, but it is 
crucial that the process is fair and transparent. I think your 
work on the appliance standards program and bringing 
stakeholders into the fold early is equally important and can 
result in a more workable and achievable set of standards.
    Now one important aspect of setting efficiency standards 
should be understanding the upfront cost to consumers of a 
product associated with any efficiency gains. I represent a 
very rural part of Ohio, eastern and southeastern Ohio. Many of 
my constituent's live paycheck to paycheck. And I worry that 
these standards could have a disproportionally adverse impact 
on low-income households as the costs of appliances go up.
    So to what extent does DOE consider the impact of cost to 
the consumer in consideration for efficiency standards, 
especially as it relates to low-income households?
    Mr. Simmons. So our statutory mandate is to look at the 
maximum improvement in energy efficiency that is 
technologically feasible and economically justified. And so in 
the consideration of what is economically justified, that is 
where we do the analysis to try, to the maximum extent 
possible, to make sure that we are not increasing the cost of 
products and making things more difficult. Because if you 
cannot afford a new product, if you cannot afford a new HVAC 
system, for example, then you are not going to receive any 
benefits from it, and you may, then, put in window units that 
are less efficient. So the cost considerations are of paramount 
importance.
    Mr. Johnson. Can you just briefly indicate any specific 
cost factors that you consider in that type of analysis?
    Mr. Simmons. Well, there are seven. The economic impact for 
consumers and manufacturers, and to do that, we have to 
consider various types of consumers, whether it is higher 
income or lower income; the lifetime operating cost compared to 
increased cost, and that is a big issue. If you can't afford it 
upfront, you are not going to get those lifetime benefits. 
Projected energy savings, impact on utility or performance. So 
there is a number of factors that we consider that directly 
look at making sure that, as we are increasing a standard, that 
it does not result in consumer disutility or consumer harm.
    Mr. Johnson. OK. Along similar lines, we have seen DOE 
propose efficiency standards that raise the upfront cost of an 
appliance with the promise that we will achieve those savings 
over time. In some cases, like dishwashers, the payback period 
could exceed 10 years. I can tell you, I got a dishwasher and I 
am already having to do major repairs, and I haven't had it for 
10 years. So I would never achieve that efficiency payback.
    So does DOE have any criteria for what it considers a fair 
payback period for appliances?
    Mr. Simmons. I would have to get back to you. I don't think 
so. We don't have an exact level. But it is one of the 
considerations that is looked at, is what is the payback 
period. Because if it gets very long, if it is 10 years, in my 
opinion, that is far too long because of all of the possible 
intervening events that can happen in that 10 years, that 
paybacks need to be quicker.
    Mr. Johnson. Yes, I am certainly not trying to be funny, 
but back to that paycheck-to-paycheck analysis, if it doesn't 
have a return on investment within the next month, people in 
rural America are going to be hard-pressed to purchase 
efficiency systems.
    Can you provide some examples where the payback period 
exceeded the life of the product? Have you run across any of 
those examples?
    Mr. Simmons. I believe they exist. I don't have any at my 
fingertips currently. I would be happy to provide that in 
writing.
    Mr. Johnson. OK. If you could get back to me, I would 
appreciate it.
    Mr. Simmons. Yes.
    Mr. Johnson. Mr. Chairman, I yield back a whole 26 seconds.
    Mr. Welch. You are very generous today. Thank you.
    The Chair recognizes Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Mr. Chairman and ranking member, 
for having this meeting today.
    Cutting-edge energy efficiency technologies of tomorrow are 
available today. And it is this committee's responsibility to 
ensure that the Department of Energy continues to deploy energy 
efficiency standards as they are described in the Energy Policy 
and Conservation Act to not only benefit Americans, but also 
the environment we live in.
    The effects of climate change are impacting rural America 
the hardest, especially in my State of Arizona, where droughts 
are impacting our farmers, crop yields. Wildfires are 
devastating our National Forests and Parks. Following the 
United States' fourth hottest summer on record, according to 
NOAA, these energy efficiency standards that we are discussing 
today have never been more important.
    The benefits of energy efficiencies technologies are very 
clear. But protecting the environment should not be a partisan 
issue, but, rather, a call to action in which members of both 
sides of the aisle may find common-sense solutions.
    As a member of this committee, I am new. And so I guess 
where I come from is you are the head of a fairly large group 
of people. When you put these projects together, as you stated, 
your most important issue to meet the statute requirements. And 
so what does that work plan that you put together look like in 
order to meet those? What are your timelines? What are your 
milestones? Do you put that together for each plan, so that you 
can make those guidelines become available to the public?
    Mr. Simmons. So that is, at the highest level, that is 
available to the public. That is what is called the Unified 
Agenda of Regulatory and Deregulatory Actions. That describes 
the 50 active regulatory actions that are currently occurring 
in the Department of Energy. And the most recent update to that 
was in the fall. In that, there were 24 test procedures that 
were on the active agenda. There were 17 energy conservation 
standards that we are actively working on. We have just sent 
updates to that to OMB, to OIRA, for the spring Unified Agenda 
that will lay out what regulations we are going to be actively 
working on. And I expect that when we are done with that 
process, there will be more--that we will be adding new active 
regulatory actions to that agenda.
    Mr. O'Halleran. As you miss milestones and other deadlines, 
do you try to identify do you have a lack of personnel or are 
there change orders that are coming in, similar to a 
construction project, that require, whether it is political or 
otherwise, require changes that would move that end date of 
accomplishment of meeting statutory requirements?
    Mr. Simmons. There is some internal work that I definitely 
can engage in to make sure that we are doing a better job of 
meeting our deadlines and interacting with staff. I have not 
spent as much time as maybe I would like to talk with the 
program about looking for how they believe that we can do a 
better job of meeting our standards, and I will do that.
    Mr. O'Halleran. Has there been any request for additional 
funding in order to be able to meet standards on a timely 
basis?
    Mr. Simmons. Not internally, no.
    Mr. O'Halleran. OK. I guess when I am late getting my taxes 
in, if I am, I either file an extension and let everybody know 
in the IRS or I get penalized. If I am late with a payment to 
the bank, after a while they say, ``You owe your money.'' And 
when we are late with getting a statutory requirement into 
Congress, I would think that our agency would say we need to 
find a way to get it there on time. And I am trying to figure 
out why that is not being accomplished.
    Mr. Simmons. One reason is that this process takes a long 
time, and it takes a long time to do right.
    Mr. O'Halleran. But, you know that at the beginning anyway. 
It has taken a long time, time after time after time. So the 
idea is, the American people are waiting to be able to save 
money, to save energy, and to be more efficient with the use of 
that energy. And the more that there are delays in the system, 
it is apparent, some of the billions of dollars of savings that 
are accomplished over time, that we are costing the American 
taxpayers money. And it would be efficient for us to be able to 
get these statutory requirements that you identified as the 
most important process, to get it finished.
    Mr. Welch. And the gentleman's time----
    Mr. O'Halleran. Thank you, Mr. Chairman. I yield.
    Mr. Welch. Thank you.
    Mr. Simmons. May I respond to just say that that's a good 
and valid point.
    Mr. O'Halleran. Thank you.
    Mr. Welch. The Chair recognizes Mr. Bucshon from Indiana.
    Mr. Bucshon. Thank you.
    And thank you, Assistant Secretary, for being here.
    I was a doctor before. I just want to clarify that carbon 
dioxide is a byproduct of normal human respiration, and in and 
of itself has no effect on cardiovascular disease or asthma. 
That has been implied over and over in the climate discussion. 
I believe that the climate is changing, but to imply that that 
byproduct of respiration has a direct effect on those diseases 
is hyperbole and meant to scare the American people.
    Why are four rules under litigation?
    Mr. Simmons. Four rules are under litigation because we did 
not send them to the--we did not finalize them by sending them 
to The Federal Register.
    Mr. Bucshon. OK. Are these rules from the previous 
administration or----
    Mr. Simmons. Yes.
    Mr. Bucshon. OK. So the litigation doesn't have anything to 
do with the rule itself; it has to do with the timing of 
submitting them to The Register? Or are there flaws that you 
can comment on in the rule that was----
    Mr. Simmons. The litigation is about whether or not it was 
legally permissible for us not to send them to The Federal 
Register.
    Mr. Bucshon. OK. Thanks for clearing that up.
    Did the Obama administration that you are aware of meet all 
its statutory deadlines? Has this been a chronic problem?
    Mr. Simmons. It has been a problem for multiple 
administrations, including----
    Mr. Bucshon. Yes, probably for decades, right?
    Mr. Simmons. Yes.
    Mr. Bucshon. Yes. So that is on us, on Congress really, to 
help you with that, I would say.
    So the proposed energy efficiency standards must be 
developed and tested using sound science, transparent data, and 
clear metrics for determining the economic justification. You 
have talked about this some. Can you describe how your office 
plans to adhere to these most basic requirements in formulating 
new energy efficiency standards?
    Mr. Simmons. Well, many of the issues have been highlighted 
today----
    Mr. Bucshon. Yes.
    Mr. Simmons [continuing]. Of the need that we have to make 
sure that we are doing a good job, whether it is to be making 
sure that these products have good performance, that the cost 
increases, the possible cost increases are not unduly 
burdensome. And that process can take time to make sure that we 
are talking to, that we are hearing from all stakeholders, from 
the general public, to make sure that--you know, these are 
things that people interact with every single day. People 
interact with their dishwashers, with their microwaves, with 
their refrigerators, with their water heaters, with their HVAC 
systems. So it is critical that we get it right, and that can 
take time.
    Mr. Bucshon. Understood. Well, I think we can all agree 
energy efficiency is something every consumer and manufacturer 
should strive to adapt. However, I am concerned that tightening 
energy efficiency standards to unrealistic levels could have an 
unintended impact of costing American manufacturing jobs.
    And I am from Indiana and I think we know the Carrier case 
in Indiana. When I met with the parent company, United 
Technologies, they said that the 50 standards that were put in 
place over at the Obama administration made it essentially 
impossible for them to continue to manufacture in my state, as 
one of the main factors, because regulations were piled on them 
very quickly, probably for the most part for ideological 
reasons.
    And this can affect small manufacturers particularly, that 
can't absorb this type of hit. So our State is a big 
manufacturing State, home to a lot of small manufacturers in 
the Eighth District.
    So to what extent does the DOE take employment impacts into 
account when they set efficiency standards?
    Mr. Simmons. So one thing that we are legally required to 
do, so it is very important that we do do it, is that when we 
are considering the factors that make up whether or not a rule 
is economically justified, one of those factors is impact of 
lessening of competition. And I think that can be read in a 
number of ways. It doesn't explicitly talk about employment, 
but employment I believe should be included there----
    Mr. Bucshon. Sure.
    Mr. Simmons [continuing]. To make sure that the United 
States is as economically competitive as possible, and that we 
are not reducing needlessly----
    Mr. Bucshon. So you would probably agree, then, that 
putting standards in place are difficult to meet from an 
economic standpoint, that results in jobs being transferred to 
other countries than the United States, probably need to be 
looked at pretty closely, and that should be a substantial 
factor in applying these efficiency standards to the United 
States?
    Mr. Simmons. Yes. I mean, it is very much contrary to the 
administration's position to be shifting jobs outside the 
United States. We want to grow----
    Mr. Bucshon. And I would agree with that.
    Mr. Simmons [continuing]. To grow U.S. manufacturing.
    Mr. Bucshon. Thank you. I yield back.
    Mr. Welch. Thank you, Mr. Bucshon. The Chair recognizes 
himself.
    This question on efficiency standards, it's interesting. I 
want to say a couple of things. Number one there is a lot of 
bipartisan support for aggressive energy efficiency. That is 
number one. In fact, when we passed in the House the Waxman-
Markey bill that had as its goal 80 percent carbon reduction by 
2050, 40 percent of the carbon reduction was through 
efficiency.
    Secondly, there has been a lot of leadership on the 
Republican side of the aisle when they were in the majority, 
and now in the minority. So there is a real potential here for 
common ground.
    Third, efficiency standards play a major role. And some of 
my colleagues have been rightly raising some questions about 
what the impact is which you are trying to assess. What does it 
do to small manufacturers? What does it do to consumer cost? 
And those are difficult questions. They have to be addressed. 
Because if it is unaffordable, you are not going to buy it and 
you are not going to get the benefit.
    But a lot of manufacturers acknowledge that having 
standards that all of them have to compete to meet, and then, 
have that out in the marketplace actually helps them, because 
it is not a race to the bottom, where competition is on the 
basis of the lowest-quality product. So I have sympathy for the 
challenge of these competing interests. Mr. Johnson raised some 
questions. Dr. Bucshon just did, and others. But it does 
require that you get the standards out, and that hasn't been 
happening. And I don't want to go into the delays in the Obama 
or this administration. It doesn't matter. The bottom line, how 
are we going to get these standards out?
    As I understand it, there is a huge delay. We are very late 
in getting the energy efficiency improvements associated with 
the latest model of code. So I am kind of following up on what 
Mr. O'Halleran said. What have we got to do to get these 
standards out from you? That is number one.
    Mr. Simmons. Well, it is one of the reasons that we have 
the proposed process rule, because we think that that will 
streamline the process by having an early-look procedure where 
we have an assessment early in the process, and that if it 
isn't possible to meet our statutory requirements, then we can 
more easily move to the rules where there is the greatest 
opportunity for energy efficiency.
    So that is why it is also important to define what is a 
significant savings of energy, because the law requires, EPCA 
requires us for rules to save a certain amount----
    Mr. Welch. Yes. Well, you know, you have got a hard job 
because of all of these competing considerations you have got 
to take into account, but we really need you to get that done. 
And then, we can have an argument about what the impact is.
    Another issue is about the DOE loan program, and I 
understand that is a different office than yours, but it 
overlaps a bit with your focus area. Currently, as I understand 
it, there is $5 billion in unused loan authority for renewables 
that are available. That was a program authorized under the 
Bush administration. And can you tell us what is up and what we 
need to do to get that thing going?
    Mr. Simmons. I know that the loan program is actively 
looking for projects. I know that they have talked to the Wind 
Office, for example, about potential. And one area could be 
offshore wind projects.
    Mr. Welch. So what have we got to do to----
    Mr. Simmons. They are working on it.
    Mr. Welch. What have we got to do to get those loans 
authorized?
    Mr. Simmons. That I don't know. I can say that, as the head 
of the Loan Program Office said, that LPO is open for business 
and that they have been actively looking for opportunities.
    Mr. Welch. And so you don't know, basically?
    Mr. Simmons. I don't know more than what I just said.
    Mr. Welch. Well, yes, I mean, that is frustrating, probably 
is frustrating for you as well. I mean, you have got that loan 
authority. You have got a lot of entrepreneurs out there. It is 
not a red State/blue State deal. A lot of folks who see an 
opportunity to make some money would be able to do it, if they 
could get access to the loans and move ahead. So I just urge 
you to do all you can to implement that program or encourage it 
to be implemented.
    And finally, I want to take a step back and briefly ask 
about a few other efforts at DOE. What steps is DOE taking to 
ensure energy efficiency R&D is being conducted at all levels, 
the early stage, the mid stage, and long-term focus?
    Mr. Simmons. So we know that the key there is that, as 
Secretary Perry has said, we are following congressional 
direction. And so where we have congressional direction to be 
at early, mid, and late stage, we are trying our best to meet 
that congressional direction. And you will see that in the next 
few weeks when the Building Technology Office releases their 
latest funding opportunity announcement.
    Mr. Welch. Thank you. We will look forward to seeing that.
    Mr. Rush [presiding]. Mr. Secretary, it has been a long 
morning and I know you have other important work that you have 
to get done. I want to thank you so very much for your 
participation here during this first panel, and we want to see 
you again soon.
    [Laughter.]
    Mr. Simmons. Likewise. Thank you very much, Mr. Rush.
    Mr. Rush. All right. And that concludes panel one.
    Now I would like to invite panel two to now take seats at 
the desk.
    Now that we are in set order or sit order, let me introduce 
the panelists, beginning at my left.
    Mr. Andrew deLaski is the executive director of the 
Appliance Standards Awareness Project of the American Council 
for an Energy Efficient Economy.
    Ms. Katherine Kennedy is the senior director of the Climate 
and Clean Energy Program at the Natural Resources Defense 
Council.
    Mr. Joseph M. McGuire is the president and CEO of the 
Association of Home Appliance Manufacturers, AHAM.
    Mr. Charles Harak is the senior attorney for energy and 
utility issues of the National Consumer Law Center.
    Mr. Stephen Yurek is president and CEO of the Air-
Conditioning, Heating, and Refrigeration Institute, AHRI.
    And Mr. David Friedman is the Vice President of Advocacy 
for Consumer Reports.
    And at this time, the Chair will now recognize each witness 
of the second panel for 5 minutes to provide an opening 
statement.
    Before we begin, I have the task of explaining the lighting 
system. In front of you is a series of lights. The light will 
initially be green at the start of your opening statement. The 
light will turn yellow when you have 1 minute remaining. And 
please begin to wrap up your testimony at that point. And the 
light will turn red when your time has expired.
    With that, I will now recognize Mr. deLaski for 5 minutes 
for an opening statement.

  STATEMENTS OF ANDREW deLASKI, EXECUTIVE DIRECTOR, APPLIANCE 
  STANDARDS AWARENESS PROJECT, AMERICAN COUNCIL FOR AN ENERGY 
EFFICIENT ECONOMY; KATHERINE KENNEDY, SENIOR DIRECTOR, CLIMATE 
 AND CLEAN ENERGY PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL; 
  JOSEPH M. McGUIRE, PRESIDENT AND CHIEF EXECUTIVE OFFICER , 
  ASSOCIATION OF HOME APPLIANCE MANUFACTURERS; CHARLES HARAK, 
STAFF ATTORNEY AND MANAGER, ENERGY UNIT, NATIONAL CONSUMER LAW 
    CENTER; STEPHEN R. YUREK, PRESIDENT AND CHIEF EXECUTIVE 
     OFFICER, AIR-CONDITIONING, HEATING, AND REFRIGERATION 
 INSTITUTE; AND DAVID J. FRIEDMAN, VICE PRESIDENT OF ADVOCACY, 
                        CONSUMER REPORTS

                  STATEMENT OF ANDREW deLASKI

    Mr. deLaski. Chairman Rush, Ranking Member Upton, and 
distinguished members of the committee, I thank you for the 
opportunity to testify today.
    My name is Andrew deLaski. I am the executive director of 
the Appliance Standards Awareness Project. ASAP is a coalition 
project that is lead by a steering committee consisting of 
efficiency advocacy organizations, State Government 
representatives, consumer and environmental organizations, and 
utility companies.
    I would like to do two things in my remarks today. First, I 
want to highlight how the existing National Standards Program 
benefits the nation. Second, I will describe for you how the 
current administration has badly mishandled the program.
    Appliance, equipment, and lighting efficiency standards are 
one of the foundations of U.S. energy policy. According to the 
American Council for an Energy Efficient Economy, they are the 
number two Federal policy for saving energy. The energy and 
water savings from appliance standards translate into 
pocketbook savings for consumers and businesses, create jobs, 
make our energy systems more resilient and reliable, foster 
technological innovation, and reduce emissions that harm public 
health and the environment.
    Some data for your consideration. The typical household 
spends about $500 less per year on their utility bills than if 
there had never been any standards. That is equal to a 16 
percent utility bill cut. It is hard to think of another policy 
out there that has done as much to improve the affordability of 
energy bills. All told, consumers' savings from existing 
standards for both consumers and for businesses totals $2 
trillion by 2030. It is a Department of Energy number.
    Jobs. When consumers and businesses spend their bill 
savings on other goods and services, research shows that that 
boosts employment. Standards boosted the number of domestic 
jobs by about 300,000 jobs in 2016.
    Next, saving energy with improved efficiency standards 
helps make our energy systems more resilient, reliable, and 
affordable.
    Climate change. U.S. carbon dioxide emissions in 2020 will 
be about 345 million metric tons lower, or about 7 percent 
lower, because of existing energy efficiency standards.
    Unfortunately, over the past two years, the National 
Appliance Standards Program has been seriously mishandled by 
DOE. I will summarize five ways.
    First, DOE has missed 16 statutory deadlines for 
determining if current standards should be revised and is on 
track to miss 12 more, another dozen, by January 2021. Updated 
standards could add hundreds of billions of dollars in savings 
for consumers.
    Second, the Department has proposed to eliminate light bulb 
standards slated to take effect next year. Members serving on 
this committee today from both parties worked hard on that 2007 
law that created light bulb standards. You did a good thing. 
You set initial standards, starting in 2012, that are now 
saving enormous amounts of energy and money. Despite claims by 
some, the sky hasn't fallen.
    You also required a second stage to take effect in 2020 and 
created a minimum level for that 2020 standard, 45 lumens per 
watt. In providing 13 years of advance notice, you sent a clear 
signal to the market. You helped unleash a torrent of 
innovation, LED light bulbs use just a smidgen of energy 
compared to the light bulbs they replace and last 10 to 15 
years.
    But now, DOE has proposed to eliminate the 2020 light bulb 
standards by rescinding the 2017 rule that expands the 
standards to most everyday light bulb and asserting--you heard 
it today--that the backstop standard does not apply. This 
action would cost a typical U.S. household about $115 in lost 
energy savings by 2025 on an annual basis. Carbon dioxide 
emissions in 2025 will be about 1 percent higher on a 
nationwide basis because of this rollback action. Where else 
can you get a policy that will save the average household over 
$100 and also trim U.S. CO2 emissions by 1 percent? It makes 
zero sense to eliminate light bulb standards.
    Third, DOE has proposed an unnecessary rewrite of its 
standards development process rule that won't make it just 
harder to catch up on missed deadlines; it will put the 
National Standards Program into a deep freeze.
    Fourth, DOE has abused its enforcement discretion to issue 
broad policies that negate duly-promulgated standards. DOE 
reversed course on one of these when the requesting industry 
group changed its mind, but the message has been sent. DOE is 
open to simply not enforcing the law.
    Fifth, DOE now contemplates a petition from the gas 
industry that would, if acted on, eliminate consideration of 
the single most important technology for saving natural gas, 
condensing technology. We are very concerned that DOE will do 
as the gas industry has requested.
    These harmful policies represent a sharp break from how 
this program has been handled across prior administrations, 
both Republican and Democratic. Instead of building on the 
foundational energy policy of National Appliance Standards, 
this administration has taken a wrecking ball to it. The 
consequences will be higher utility bills for consumers, 
increased strain on our energy systems, more uncertainty for 
business, and needlessly higher levels of climate change and 
other pollution.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. deLaski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I thank the gentleman.
    The staff is trying to get you some refreshments. We will 
give them a moment to make sure that they replace the water for 
you.
    Now the Chair recognizes Ms. Kennedy for 5 minutes for the 
purposes of an opening statement.

                 STATEMENT OF KATHERINE KENNEDY

    Ms. Kennedy. Chairman Rush, Ranking Member Upton, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify at this important hearing.
    My name is Katherine Kennedy, and I am a senior director of 
the climate and clean energy program at NRDC.
    Climate change is the existential threat of our time. 2018 
was the fourth warmest year on record. The human tool of 
climate change is immense, and the economic costs are reaching 
hundreds of billions of dollars per year. Indeed, nearly 20 
percent of the Federal deficit for fiscal year 2018 was in 
response to devastating wildfires, hurricanes, floods, and 
other natural disasters around the country.
    The impacts of climate change are felt most acutely by low-
income communities and communities of color and by the most 
vulnerable Americans, especially children and the elderly. But, 
together, we can still avoid the worst impacts of climate 
change using tools and technologies that are already available, 
first and foremost, energy efficiency. We know how to solve 
this problem. The biggest risks are inaction and delay.
    As NRDC explained in our recent report ``America's Clean 
Energy Frontier: The Pathway to a Safer Climate Future,'' using 
energy more efficiently is crucial to America's efforts to 
fight climate change. It is our best weapon. Energy efficiency 
lowers carbon pollution and consumer energy bills, strengthens 
the electricity grid, and avoids the air and water pollution 
that threatens our health and that of our communities. Energy 
efficiency is the most equitable and affordable climate 
solution because, as it lowers carbon pollution, it also lowers 
the energy burden on low-income Americans.
    DOE's Appliance Standards Program has a strong bipartisan 
track record. It was created in 1987 under a Republican 
President, a Republican Senate, and a Democratic House. For 
four decades, it has enjoyed support, not only from groups like 
NRDC, but from consumer and low-income advocates, utilities, 
State officials, and many manufacturers.
    Our National Standards Program has already produced 
enormous carbon energy and dollar savings, but the best is 
still to come. As we energy wonks like to say, energy 
efficiency is the low-hanging fruit that keeps growing back. 
Opportunities for further energy efficiency keep growing as 
technology and innovation continue to advance.
    Now is the time to dramatically scale up our energy 
efficiency program. Appliances and equipment have long 
lifetimes. Each inefficient piece of equipment installed today 
in our homes, businesses, and factories helps to lock in a 
higher level of global warming. The more we delay, the harder 
it will be to reverse course.
    We should continue the tradition of bipartisan support for 
energy efficiency standards, but the current administration has 
brought the DOE efficiency standards program to a grinding halt 
and is trying to put it in reverse. The agency has not issued 
one new or updated energy efficiency standard, or even proposed 
any standards, under this administration other than those 
issued by the Obama administration or put in place by Congress.
    There is no room for excuses. DOE has clear legal deadlines 
to meet, and time and time again, this administration has 
failed to meet them. Instead, DOE is focused on unnecessary 
changes that will undermine the program and its impact. DOE is 
even attempting to gut lighting standards signed into law by 
President George W. Bush.
    Congress should be gravely concerned that DOE's illegal 
delays will have consequences stretching far beyond this 
administration. Fighting climate change without a robust energy 
efficiency standards program is like trying to finish a puzzle 
with missing pieces. It is harder, it takes longer, and in the 
end, it is impossible. That is not a risk we can afford to 
take.
    Instead of irresponsible and illegal delays and rollbacks, 
DOE should update energy efficiency standards on time and 
should act to expand the program's energy and carbon savings. 
This will benefit all Americans, our economy, and our 
environment, and will protect our children's future.
    Thank you, and I will be happy to respond to any 
questions.\1\

    \1\ The prepared statement of Ms. Kennedy has been retained in 
committee files and also is available at https://docs.house.gov/
meetings/IF/IF03/20190307/109029/HHRG-116-IF03-Wstate-KennedyK-
20190307.pdf.

    Mr. Rush. Thank you.
    The Chair now recognizes Mr. McGuire for 5 minutes.

                 STATEMENT OF JOSEPH M. McGUIRE

    Mr. McGuire. Chairman Rush, Ranking Member Upton, and 
members of the subcommittee, thank you for the opportunity to 
testify this morning on behalf of the home appliance industry.
    Our industry is a strong supporter of, and participant in, 
the appliance standards program since its creation. We strongly 
support a system of Federal standards and State preemption, and 
we do not support a rollback of any standards.
    The energy efficiency gains across major appliance 
categories are dramatic and undeniable. Modern refrigerators 
use the same amount of electricity as a 50-watt light bulb. A 
new clothes washer uses 73 percent less energy than it did in 
1990 but can hold 20 percent more laundry. Today's average 
dishwasher uses 50 percent less water than in 2001.
    While the appliance program is successful, it is in need of 
modernization. Over the years, regardless of the 
administration, concerns have arisen when DOE has failed to 
move in an efficacious manner, too slowly, too quickly, and 
with no real prioritization.
    In 2005, DOE was directed by Congress to issue a standard 
for battery chargers by 2008. That did not happen. In 2007, a 
new law compelled DOE to act no later than July 1st, 2011. DOE 
did not issue the final rule until 2016.
    And DOE has moved too quickly to publish a standard. The 
most alarming example of this was the 2015 proposed dishwasher 
rule. Manufacturer tests show that dishwashers could not clean 
dishes with such a small amount of water allowed by the 
standard. The economic analysis to support the proposed rule 
also showed the economic payback to the consumer was longer 
than the useful life of the product. To its credit, DOE did not 
dispute the test results provided by our Members and pulled the 
proposed standard back.
    The overarching historical problem is that DOE's work and 
resources are based on arbitrary timelines set forth under 
EPCA. DOE's resources should be used efficiently to manage 
energy savings, not maximize rulemakings.
    In the last two Congresses, AHAM has advocated amendments 
to achieve these modernizations. We would welcome action on 
such legislation by this committee and the 116th Congress in a 
bipartisan manner.
    Short of achieving such legislative reforms, we have urged 
DOE to adopt some of these reforms administratively. We are 
pleased that DOE has proposed important, but modest reforms in 
the past few weeks, and we look forward to studying them 
further and hope that the Department will implement them.
    To be clear, much of the current process rule stays intact 
under the latest reforms proposed by DOE. We support a few 
common-sense principles in the proposal. The first is that the 
agency should be required to follow the process it establishes 
to govern the regulatory program. Second, requirements in how 
to test a product should be final before a standard is 
proposed. Third, provide DOE the ability to better prioritize 
its regulatory work and to focus its resources on those 
products that offer the greatest opportunity for energy 
savings.
    And let me add a word about test procedures for home 
appliances. Virtually all Federal appliance efficiency test 
procedures were initially built on industry-developed test 
standards. The new process rule requires DOE to rely on these 
voluntary accredited standards consistent with OMB directives, 
where appropriate. DOE always had, and will continue to have, 
the ultimate says on Federal test procedure construction.
    Our objective is to improve the regulatory environment in 
measurable ways that foster a fair, more predictable, more 
open, and more efficient regulatory landscape. We will continue 
to live up to our responsibility to provide consumers with 
life-enhancing products that deliver superior performance and 
energy and environmental benefits.
    Mr. Chairman, and members of the subcommittee, in summary, 
we call on Congress to modernize EPCA, so that DOE can better 
prioritize its work based on potential energy savings, improved 
transparency, and stakeholder engagement, and a logical 
sequence to proposing test procedures and standards.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions.
    [The prepared statement of Mr. McGuire follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Thank you.
    The Chair now recognizes Mr. Harak for 5 minutes.

                   STATEMENT OF CHARLES HARAK

    Mr. Harak. Thank you, Chairman Rush, Ranking Member Upton, 
and members of the committee. I thank you for the opportunity 
for allowing the National Consumer Law Center to offer 
testimony. It is truly a privilege to have the opportunity to 
provide NCLC's perspective on why regularly updated appliance 
standards are so important for low-income consumers.
    Appliance standards make home energy more affordable. For 
low-income consumers, this means fewer terminations of utility 
service and homes that are more comfortable and healthier to 
live in. Even from a narrow Federal budget perspective, 
appliance standards help stretch Federal fuel assistance 
dollars, the program referenced by the Congresswoman from 
Delaware, by lowering the household's heating and cooling 
bills.
    To provide some context for my comments, I will share some 
calls I had with a low-income consumer recently. The woman--I 
will call her Susan--had been living without heat for three 
weeks because her landlady had done nothing to fix her heating 
system after it had stopped working. Susan is a working single 
mom with a school-age child. While her heat was out, Boston had 
temperatures below 10 degrees, at the same time that the 
Midwest was experiencing record cold temperatures. Her 
apartment was so cold that her son had a hard time getting up 
and going to school, as he was anxious and lethargic. While the 
local board of health eventually cited the owner for serious 
sanitary code infractions, Susan had to tell the owner she 
would be going to court in order to get the heating system 
working again.
    For those of us who work with low-income households, 
experience teaches that, when owners replace failed equipment 
like the heating systems in Susan's home, they often go out and 
buy the lowest-cost and least-efficient unit that will replace 
the failed appliance. This leaves the tenants with higher 
energy bills.
    This is why imposing minimum appliance efficiency standards 
is so important for low-income people, in particular. They are 
disproportionately renters. While the homeownership rate for 
the country as a whole is around 64 percent, homeownership 
rates among low-income households are around 30 percent.
    The major appliances which contribute most to energy bills, 
heating systems, air conditioners, water heaters, are almost 
always purchased by the owner. In the absence of good 
standards, low-income renters will become saddled with 
inefficient equipment and needlessly high bills for years.
    While some critics voice concerns about the cost of 
adopting efficiency standards, the Department of Energy 
operates under statutory mandates that require it to ensure 
that standards adopted provide net benefits to consumers. The 
statutory language which the Assistant Secretary referenced, I 
will quote it. ``Any new or amended energy conservation 
standard shall be designed to achieve the maximum improvement 
in efficiency which the Secretary determines is technologically 
feasible and economically justified.''
    Historically, the Department has taken quite seriously 
those last five words, ``technologically feasible and 
economically justified''. My office, the National Consumer Law 
Center, has been in several Department standards dockets. They 
do take years to complete, involve extensive analysis of the 
economic impacts on consumers, on manufacturers, and on the 
economy, and allow for all stakeholders to be heard.
    The Department's own web page says, ``DOE regulations 
governing covered appliances...are established through a 
rulemaking process that provides opportunities for public 
review and comment. Manufacturers, distributors, energy 
suppliers, efficiency and environmental advocates, and other 
members of the public are encouraged to participate in 
rulemakings.'' And, in fact, they do.
    If NCLC would make any criticism of the Department's 
process, we would note that it has consistently erred on the 
side of overestimating the cost of manufacturers complying with 
the standards. Products sold after the standards go into effect 
often cost less than estimated, and consumer benefits have, 
therefore, been even greater than predicted.
    The net benefits to consumers of appliance standards are 
impressive. The Department estimates--again, I am quoting their 
website--``standards saved American consumers $63 billion on 
their utility bills in 2015''. Energy efficiency groups agree 
that standards have saved consumers billions of dollars in the 
near term and much more in the long term.
    Consumers, thus, face significant harm when the Department 
unreasonably misses deadlines for updating appliance standards. 
The failure to promptly revise standards leaves consumers worse 
off, as the sale of less efficient products leads to higher 
energy for the life of the product purchased. For major 
residential products, heating systems, air conditioners, water 
heaters, the aggregate loss to consumers can easily reach 
hundreds of millions of dollars, depending on how the late the 
Department is in finally revising that standard. Moreover, 
because the more efficient products will result in lower energy 
bills, failure to revise standards can affect consumer health 
as well, since higher energy bills lead directly to 
terminations.
    In conclusion, we applaud the committee for holding this 
important hearing and hope the committee will succeed in 
getting the Department to meet all deadlines.
    Thank you.
    [The prepared statement of Mr. Harak follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I want to thank the witness.
    And now, the Chair recognizes Mr. Yurek for 5 minutes.

                 STATEMENT OF STEPHEN R. YUREK

    Mr. Yurek. Mr. Chairman, Ranking Member Upton, and members 
of the subcommittee, I thank you for inviting me to testify 
this morning on the topic, or this afternoon.
    Thank you, Chairman Rush, Ranking Member Upton.
    AHRI has 320 member companies that manufacture air 
conditioning, space heating, water heating, and commercial 
refrigeration equipment that supports over 100,000 U.S. 
manufacturing jobs and more than 1.3 million American jobs 
throughout its supply and distribution chain. And I want to 
make it very clear that our industry has a long and proven 
record of leadership when it comes to innovation and energy 
efficiency.
    I am here today to discuss three main points.
    First, we agree that the Department of Energy should do all 
it can to promulgate regulations in a timely manner while 
adhering to the requirements that energy standards be 
technically feasible and economically justified. Our industry 
is unequivocally opposed to delays in rulemakings, as we always 
have been. In fact, in 2005, we joined a lawsuit against DOE to 
require them to issue rules in a timely manner.
    However, the amendments enacted in EPACT 2007 actually 
increases the burden on DOE by mandating a six-year review of 
all efficiency standards and a seven-year review of all test 
procedures. AHRI and its members' companies are best served 
when the proper amount of time is devoted to each rulemaking, 
rather than cut short because of the need to catch up to meet a 
standard.
    The history of feast-or-famine rulemaking by DOE negatively 
impacts consumers and manufacturers. For consumers, it 
increases the cost of products they rely on for their comfort, 
health, and safety. For manufacturers, it increases uncertainty 
and hampers planning for future research, development, testing, 
and production of the next generation of equipment. Therefore, 
we join the subcommittee in its call for DOE to do everything 
it can to complete rulemakings in a timely manner.
    Second, we applaud DOE for recently issuing a proposed rule 
updating the process rule. While we will submit comments with 
suggestions on ways that the proposed rule might be improved, 
we are pleased that DOE intends for the rule to be binding on 
the Department, rather than mere guidance, as claimed by DOE in 
the past. When all parties are aware of the process, 
rulemakings are more transparent, economical, and predictable.
    Finally, we believe that the above two points make the case 
for a bipartisan congressional action to reauthorize and reform 
the nearly 45-year-old EPCA to bring it into the 21st century. 
While EPCA was a bipartisan response to the energy crisis of 
the mid-1970s, and it has been extremely successful, the fact 
remains, it is nearly 45 years old, and a tremendous amount has 
changed since then.
    EPCA reform should stress flexibility, enhance technical 
and economic justification. Given short shrift to such analysis 
in order to meet arbitrary statutory deadlines results in 
poorly-constructed rules that place undue burdens on small 
businesses with wide-ranging ramifications for our industry and 
the 1.3 million employees who depend on it.
    Under current law, before a standard is even in effect, DOE 
must announce the commencement of its work on the next version 
of that standard, all to comply with the six-year mandated 
rulemaking cycle. We are not suggesting no additional 
rulemakings, nor would we ever suggest rolling back efficiency 
standards for any product category. Manufacturers in the market 
are simply not given enough time to adjust to new regulatory 
requirements. Our equipment is designed to remain in service 
for more than a decade. So the market for new products must be 
viewed in the long term, not in six-year increments.
    A reformed EPCA would require the new rulemakings to 
include a look-back to determine the effectiveness of the 
previous rule as it pertains to actual energy savings and 
associated costs. Every time DOE issues a new rule, it issues a 
press release that extols its estimates of the rule's benefits 
and cost savings for consumers and energy savings for the 
nation. But DOE has never looked back to see what the energy 
savings were or if consumers ever recovered the additional 
money it costs them upfront for the more efficient equipment. 
This needs to change.
    Mr. Chairman, and members of the subcommittee, many people 
believe that a divided Government such as we have today makes 
it less likely for progress to be achieved on important issues. 
We do not see it that way. Rather, we see this as an 
opportunity for people of good will to meet in a spirit of 
cooperation and compromise to bring about necessary change. 
Therefore, the opportune time for updating EPCA is now.
    AHRI and our Members are committed to openness and 
cooperation with Congress, allied trade associations, 
efficiency advocates, and the DOE on ways we can all work 
together to improve this nearly 45-year-old law. We invite all 
stakeholders to join us and work together to craft an updated 
regulatory scheme that meets the needs of the current and 
future market while achieving the nation's energy goals.
    Thank you very much.
    [The prepared statement of Mr. Yurek follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. That concludes the opening statements.
    Oh, I'm sorry. Mr. Friedman, please accept my apology. You 
are recognized for 5 minutes.

                 STATEMENT OF DAVID J. FRIEDMAN

    Mr. Friedman. I apologize. Dealing with technical 
difficulties.
    Mr. Upton. You just feel like the President; you get three 
mikes, right?
    [Laughter.]
    Mr. Friedman. There you go. There you go. I just want to be 
closer to the middle, I guess.
    Well, Chairman Rush, Ranking Member Upton, and members of 
the committee, thank you for the opportunity to testify on 
behalf of Consumer Reports, our more than 6 million members, 
and Americans, who together spend nearly $325 billion a year on 
their household energy bills.
    Now, as a nation, we have known for more than 240 years 
that some truths are self-evident. So with tongue partly in 
cheek, I would point to the self-evident truth that the 
cheapest energy is the energy you never use, and it is energy 
efficiency standards that deliver just that. Or, to use the 
Assistant Secretary's frame, the most affordable energy is the 
energy you never use.
    Now I saw that self-evident truth firsthand when I sat in 
the same chair as the Assistant Secretary a few years ago. When 
the Department of Energy is active on energy efficiency 
standards, the benefits truly add up. In fact, they have 
delivered a 5-to-1 return on investment for every American that 
should be the envy of Wall Street.
    And here, investment is truly a keyword. These standards 
are an investment in American ingenuity. Our top companies look 
to these standards both for market certainty and to continue 
driving innovations into the market. They create a series of 
good, better, and best models of a product and count on DOE 
staff to survey that progress as they set the next standard. 
These companies see their R&D dollars pay off and create new 
jobs as the market changes while consumers save a lot of money 
from this virtuous cycle.
    The only other option, frankly, is a race to the bottom, 
which is what will happen if we buy into those here who seem to 
think that American ingenuity is nearly tapped out. Plenty of 
company's overseas are happy to keep the bar low, dumping their 
barely compliant products on our markets while other countries 
get the latest technology.
    Now, in contrast, as I think you have already heard today, 
lighting shows what happens when you invest in innovation. You 
can walk through any hardware store now and you can choose LEDs 
that have daylight, soft white, dimmable bulbs, programmable 
bulbs, floodlights, candelabra lights, bulb lights, Christmas 
lights. I even saw some menorah lights. You can get anything 
you need, and all those amazing choices are thanks to a mix of 
efficiency standards set by Congress in this case and other 
investments in innovation.
    Now, building on this success story, near the end of my 
time at DOE, staff put forward a well-reasoned plan to expand 
the definition of general service lamps, so more choices and 
savings could be available for more Americans. This 
administration's rollback will reduce consumer choice and make 
utility bills less affordable.
    Now, from reading the proposal, the decision was clearly 
not about consumers or affordable energy. Instead, they 
appeared to rely on legal gymnastics to argue that what was 
perfectly legal in 2016 was no longer allowed just a few years 
later. Of course, the law didn't change.
    Adding insult to injury, the Department's process rule 
update is filled with red tape. And frankly, I find it shocking 
that, when Congress puts down deadlines or creates process, it 
is called arbitrary; it is called optional. And yet, when we 
have new administration process, it is called necessary and 
must be binding. I don't think that is the way the Constitution 
works.
    DOE should be focused on helping Americans, not adding new 
red tape that further slows down the process and appears 
designed to help companies tie up these standards in courts. 
Making matters worse, the proposal sets an arbitrary threshold 
for whether or not some household products can ever get a new 
or stronger standard.
    This retrospective-based threshold is completely out of 
step with modern life, where we rely on consumer electronics 
and other gadgets that don't use a ton of energy individually, 
but together account for nearly 40 percent of home electricity 
use. That shouldn't be off limits.
    Now, sadly, administration decisions that leave American 
consumers footing the bill are all too common these days. From 
rollbacks on fuel economy standards that will cost consumers 
more than $400 billion to rollbacks on predatory loan 
protections and net neutrality, the scales are being tipped 
further and further away from everyday Americans. The solution 
is for all of us, consumers, Government, and leading 
businesses, to ensure that innovation and technological 
progress serve the interests of the American people again. And 
that means being guided by self-evident truths.
    In closing, developing standards that allow the talented 
Federal staff to get back to work on timely, transparent, data-
driven standards that will save consumers money and help put 
the marketplace back in balance. And I hope that is what we can 
deliver together.
    Thank you.
    [The prepared statement of Mr. Friedman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. I want to thank the witnesses, all the witnesses.
    We have now concluded the opening statements, and will move 
toward member questions. Each Member will have 5 minutes to ask 
questions of our witnesses. And I will begin by recognizing 
myself for 5 minutes.
    Mr. Harak, when did the National Consumer Law Center first 
become involved with DOE appliance standard dockets and why? 
And initially, how does the delay of rulemaking of efficiency 
standards impact low-income consumers?
    Mr. Harak. I jointed the National Consumer Law Center in 
2000. And it may be no surprise, this is not our primary work, 
appliance standards. We are mostly trying to make sure people 
don't freeze in the winter of cold and die of the heat in 
summer, have the lights on and the appliances they need.
    But some of my colleagues here brought to my attention that 
there were standards proceedings. And at the time, the furnace 
standards proceedings were moving. And it became apparent that 
that is a really important issue for low-income consumers.
    I live in Massachusetts. Mr. Chairman, you are in Illinois. 
These are cold States where people's heating bills are just 
about the largest bill they face. And if they lose their 
heating, that is one of the gravest threats they can face.
    So we became involved in this from the perspective that it 
is very important for there to be standards that keep bills 
down on those major appliances for low-income people, and as I 
mentioned in my testimony, particularly because they are so 
disproportionately tenants. No tenant buys a heating system. 
Tenants don't buy a lot of the major appliances, and they 
really can be saddled with bills.
    And so when you ask about what is the impact of delay, you 
heard a little bit from the Assistant Secretary there is a 
pretty complicated scheme of what DOE looks at. And one of the 
things they look at is the percentage of consumers who are 
better off if the standard passes and the percentage who are 
not. There is always some shakedown between that. But when DOE 
issues the rules, because the vast majority of people would 
benefit by that standard getting out the door, well, the 
logical converse of that is, if you don't get it out of the 
door, the majority of consumers are going to be harmed because 
those less efficient appliances are in the market.
    And it is perhaps why I started with the story about that 
client with their heating system down. That is the reality of 
appliance standards. It is important when a Susan of the world 
has her heating system down, that the landlord cannot buy 
something that is extremely inefficient.
    Mr. Rush. Mr. Friedman, as a former Principal Deputy 
Assistant Secretary and Acting Assistant Secretary of Energy's 
Office of Efficiency and Renewable Energy, EERE, can you 
briefly discuss the important role that negotiated rulemakings 
have played in building consensus? From your understanding, how 
would this new process rule impact negotiated rulemaking?
    Mr. Friedman. Thank you, Mr. Chairman, for the question.
    The vast majority of the times DOE staff is able to dive 
in, look at the data, and produce standards that work for all 
Americans and work for industry. At times, some of the 
standards are more controversial. And so staff rely on a 
negotiated rulemaking process, which it is pretty 
straightforward. You get everyone around the table, and you 
talk about what works, and you try to find a consensus that 
helps everyone. It has been incredibly successful at breaking 
through logjams.
    One of the things I fear that is going to happen with this 
new process rule is, if it is binding, it is going to allow 
companies to tie up every single step in the courts, so you 
will never even get to negotiated rulemaking. And you would 
strangle the opportunity for industry and consumers to work 
together with Government to make things better for all.
    Mr. Rush. Mr. deLaski, do you have any input that you would 
like to offer on the same question?
    Mr. deLaski. Yes. I served as the chair of the Federal 
advisory committee that worked on negotiating rulemakings from 
2012 until 2018.
    I am concerned that the process rule as proposed would make 
successful negotiation far less likely, for the reasons that 
Mr. Friedman has described. That is probably first and 
foremost, is that it is going to freeze up the process 
altogether. So why negotiation if there is no risk that the 
Department is going to act at all, right? So the incentive to 
come to the table to negotiate has been massively reduced.
    The second thing I thought--I think all of us actually 
would agree on this--is that it takes away the ability to do 
creative things in negotiation that enable success, like 
looking at flexible compliance dates, such as looking at 
different standards for different equipment types. So some of 
that flexibility that they have taken away by the process rule 
will really reduce the ability for--when you take away options 
off the table, that makes agreement harder to achieve. And that 
is what the process rule as proposed would do.
    Mr. Rush. That concludes Mr. Pallone's time. The Chair now 
recognizes the ranking member for 5 minutes for purposes of 
questioning the witnesses.
    Mr. Upton. Thank you, Mr. Chairman.
    Again, I appreciate all of your testimony. I think that it 
is pretty apparent that all of us want appliance standards, 
energy efficiency standards for appliances.
    Mr. Friedman, you made a very good point that the industry 
does want these, particularly the domestic industry here, 
because we can beat anyone else in the rest of the world. We 
also know that there is a direct payback to all the Americans 
that are able to use that.
    I know, Mr. McGuire, you share that. As AHAM, you know that 
your member companies share those same views.
    I have a couple of comments. Mr. McGuire, you indicated in 
your testimony--you didn't read it all, which is good because 
you summarized it--but you said, on page 9, ``Home appliances 
are now in an endless cycle of regulation, where as soon as one 
compliance effort ends or is near completion, another round of 
regulation to change the standard again begins. . . . no time 
for manufacturers to catch their breath. Just as importantly, 
there is no time for DOE, manufacturers, or efficiency 
advocates to assess the success of standards or review their 
impacts on consumers and manufacturers.''
    What should the timing be? Should it come at a certain 
period after the regulations are finalized? What should that 
look-back period be? What would you suggest?
    Mr. McGuire. First of all, the six-year look-back, that 
clock starts running as soon as the rulemaking is completed for 
the standard. So before the companies have the ability to sell 
through product to the existing standard, DOE is already in the 
process of a rulemaking to change it. So the manufacturers have 
to be involved in that.
    The other fundamental problem is that there is a six-year 
look-back for standards; there is a seven-year look-back for 
test procedures. They are out of sequence. You have to have a 
completed test procedure before you can test a product to see 
how much energy it uses and if it can meet the standard. So we 
think that sequence needs to be changed, needs to be looked at.
    And secondly, DOE is really hamstrung between the statutory 
look-back requirement and the statutory balancing test of 
maximum technological feasibility, significant energy savings, 
and economic justification. They are hamstrung. They are never 
going to have the resources. They never have had the resources 
to do a good job on all these rulemakings at the same time. We 
have seen the perils of when they try to do that.
    So a new process, an amendment to EPCA could be that, for 
some products that have been through three and four different 
standards, the diminishing returns of the energy savings are 
there. Those products ought to be in a separate class where 
they don't have to go through a serial look-back every time, 
unless, as Assistant Secretary Simmons said, through R&D that 
DOE does or that companies do, a technological breakthrough is 
determined, and then, a quick look can happen.
    So there needs to be prioritization. Vast energy savings 
have been achieved for many products and we are at a 
diminishing return for others. So DOE should not be spending a 
lot of the time on the products that only delivered 4 percent 
of all the energy savings. And the Congress and I think just 
about every group at this table could work together on trying 
to find a solution to this law, which has had success.
    Mr. Upton. I want Mr. Friedman to respond to that. But 
also, the actual testing of the appliances, it is not like here 
in DC at DOE, right? At Consumer Reports, you have your own 
labs where you test them? Or do you take the data from the 
companies themselves?
    You have got to use the three mikes again.
    Mr. Friedman. At Consumer Reports, yes, we have our own 
testing labs up in Yonkers, New York, as well as an auto test 
track out in Connecticut. So we rely on our own data. We take 
no advertising dollars. We take no samples. We ensure that all 
of our results are independent. And similarly, the Federal 
Government----
    Mr. Upton. And do they usually match up with what the 
ENERGY STAR labels indicate?
    Mr. Friedman. We don't do compliance testing. We do 
comparative testing. So it would be unfair to necessarily 
compare their data to our data. We try to make sure that 
consumers can make the best choices when they walk into the 
marketplace; whereas, the Department of Energy's role is to 
ensure that a rising tide lifts all boats. Whereas, we help 
people find the very best of the best that are out there.
    I would also just add, I personally think the staff did an 
amazing job during the Obama administration of producing a lot 
of rules, and they were in a tough spot, right? They were 
trying to catch up after years of neglect of the program. They 
worked quite well under existing processes and helped many, 
many, many Americans save quite a lot of resources.
    I would also just add that it is surprising to me, the lack 
of faith that folks have in American innovation and the ability 
to keep pushing the boundaries of technology. If anything, the 
pace of innovation is changing so fast that, six years from 
now, you know, this is probably going to be obsolete. So the 
ability of the Department to not just keep up with but try to 
stay ahead of technology and move quickly is incredibly 
important. I would hate to see anything slow down, given the 
pace of innovation in this country, which I know you share a 
faith in.
    Mr. Upton. Just to conclude, because I know my time has 
expired, we are going to see amazing energy savings in a whole 
host of products. And I am going to be talking to Mr. Pallone 
later about actually having a hearing on where we are going in 
the future.
    So with that, I yield back.
    Mr. Rush. I want to thank the gentleman. The Chair now 
recognizes the gentleman from California, Mr. Peters, for 5 
minutes.
    Mr. Peters. Thank you, Mr. Chairman.
    And I want to continue with Mr. Friedman, but your name 
tags are all messed up, just for the purposes of the TV.
    So Mr. McGuire had an interesting idea about triaging the 
right kind of technology to focus on. Do you have an objection 
to that? Does that make sense to you, the notion that if 
something has gone through standards and there has been no 
basic research that has informed the technology, that we would 
focus on other things? Is that objectionable?
    Mr. Friedman. I am an engineer. I am very practicable about 
things. So I see no objection to that, but I also see no reason 
to add new red tape to get there. The DOE staff is perfectly 
capable of looking at the data, seeing whether or not there is 
a significant opportunity, and moving forward with other 
opportunities. Adding more red tape doesn't actually speed that 
up. It slows it down. So again, I would go back to there are 
really talented folks there. Let them do their work.
    Mr. Peters. Right I guess the question, the point he was 
raising is that there may be more return on applying their work 
in particular areas rather than others. And that is something 
that should be left to them, you think?
    Mr. Peters. Well, absolutely. I mean, obviously, technology 
allows much more return to keep happening than we might expect 
today. And it is DOE's staff's job to keep up-to-date on that, 
and they can already, under the current process, make decisions 
like that to focus on areas that can deliver the most savings. 
With others, if they can't, they just say they are not ready to 
be updated.
    Mr. Peters. Let me ask Mr. McGuire, what is it that keeps 
them from making that decision on their own?
    Mr. McGuire. I think the statute and resources prevent them 
from doing a realistic----
    Mr. Peters. What about the statute prevents that, though?
    Mr. McGuire. Because of the look-back requirements out of 
synch between standards and test procedures balanced against 
this test of savings of energy and economic justification. So 
no real prioritization has really occurred. Every look-back, 
except for I think one, has resulted in a full-blown rulemaking 
to go forward. The only time in our products that didn't happen 
was, after the new standard was proposed, we demonstrated that 
it would harm performance of the product. And then, DOE pulled 
it back. So the process worked.
    Mr. Peters. So I think it is a reasonable point to raise as 
we do some reform here.
    Ms. Kennedy, I wanted to ask you, do you perceive the 
issues that you have with the regime as mostly in the nature of 
oversight of how things are administered or do you think that 
there are statutory changes that are needed in the field to 
make sure that we are supporting climate change to the greatest 
extent or supporting climate action to the greatest extent 
possible?
    Ms. Kennedy. Well, certainly, there is a need for 
comprehensive U.S. climate legislation to address both clean 
energy and the climate crisis. Within the four corners of EPCA, 
this statute, I think that this subcommittee should look 
closely at opportunities to expand the program, as should the 
Department of Energy. The Department of Energy has the ability 
to expand the scope of the program in various ways. Of course, 
Congress, over the years, has added new products to the 
statute, such as lighting, and has, thus, brought to the fore 
really incredible energy efficiency change.
    Mr. Peters. And I think lighting has been a tremendous 
success. I want to know if you are aware of other things out 
there that we should be considering as a legislative body 
today.
    Ms. Kennedy. I think looking at the issue of consumer 
electronics is very important. And I would also counsel you 
that the products already covered by the statute can still 
produce significant energy efficiency improvements. So this 
idea in the process rule that we should set an arbitrary 
standard for energy efficiency savings of .5 quads is really 
misguided. We need all the energy efficiency savings we can 
get. The statute makes sure that every standard is economically 
justified, whether the savings are immense or slightly less so.
    Mr. Peters. Just really what I am trying to do is make sure 
that I understand what legislative action is required because I 
can't tell the administration how to administer this. So if we 
give them authority to do great things, and they decide they 
don't want to do that, that is their call. But what I need to 
know, and I ask for all of you going forward, is, if you would 
like to see reforms--and, Mr. Yurek, I think you are Mr. Yurek?
    [Laughter.]
    Mr. Yurek, you had some ideas specifically. I would like to 
know specifically what you would like to see in terms of 
reform, so we can get about doing the job that we need to do.
    I also take up Mr. Upton's suggestion that we talk about 
consumer electronics because that is probably something that 
the legislature hasn't looked at.
    But, again, not to be parochial, but I need to know what we 
want to put into legislation. And so to the extent you can help 
us with that, we will look forward to working with you all.
    And, Mr. Chairman, I yield back.
    Ms. Kennedy. Just looking at the example of California, if 
I may, should provide lots of ideas for Congress to----
    Mr. Peters. Of course you are right.
    [Laughter.]
    My time has expired.
    Mr. Rush. The gentleman's time has expired. The Chair now 
recognizes Mr. Latta for 5 minutes.
    Mr. Latta. Well, thank you again, Mr. Chairman, for holding 
today's hearing.
    And to our panel of witnesses, thanks very much for being 
with us today.
    Mr. McGuire or Mr. Yurek, as you are probably aware, in the 
last Congress I worked on, and will continue to work on in this 
Congress, bipartisan EPCA reform. In your views, what should 
Congress prioritize as we consider modernizing EPCA. Mr. 
McGuire, I will start with you.
     Mr. McGuire. Thank you, Mr. Latta.
    Well, I think, first of all, with regard to the rulemaking 
process, addressing the look-back timeframe for standards and 
test procedures, and to consider a provision where they at 
least could be coordinated better. But, secondly, for those 
products that have been through several standards, generations 
of standards, such as home appliances, they would essentially 
go to the bottom of the list in terms of DOE prioritizing work 
looking for significant energy savings.
    And I think this quick assessment that DOE proposed is a 
good concept to think about, so that there is a bright-line 
threshold for significant energy savings. If that can't be 
found, and it is overwhelming that it can't be found, why spend 
three years on a rulemaking trying to determine if it is 
economically justified?
    Mr. Latta. Mr. Yurek?
    Mr. Yurek. I would agree with the position taken by Mr. 
McGuire, but I think it is really looking at this and saying, 
what was done before 2007 was DOE prioritized the rules that 
need to be done and concentrated on those where they saw the 
greatest energy savings. The amendment of EPACT 2007, then, all 
of a sudden, put these mandatory six-year reviews for 
standards, seven years for test procedures into the act for all 
products. And for all products, it doesn't make sense.
    So I think it is looking at how can you give DOE the 
authority to look at this, prioritize what needs to be done, 
focus on the products where we are going to have the energy 
savings and can get those right away versus wasting all this 
time doing all these evaluations. Yes, the clothes washer 
procedure worked that time, but that took how many years? 
Three-four years of DOE staff time analysis and other things, 
the industry's time, for something where there was no energy 
savings. Instead, look at it, figure out how we can prioritize 
it, and focus on where the biggest energy savings are.
    Mr. Latta. Thank you.
    Mr. McGuire, you mentioned in your written testimony the 
example of DOE's proposed standard for dishwashers and how the 
standard was such that some dishwashers could no longer get the 
job done. And this is a good example of something that I want 
to make sure that DOE is taking into consideration. How does 
DOE ensure that a proposed standard won't negatively impact 
product performance? Because we have heard from other Members 
up here about you don't want to end up having to do the thing, 
whatever you are doing with that appliance, twice or three 
times because you are wasting more energy.
    Mr. McGuire. Right. Well, I think Mr. Simmons described the 
dilemma the Department has in making sure that the performance 
of the product isn't jeopardized. And that, in part, has led to 
difficulty meeting the statutory deadlines.
    In the case of dishwashers, DOE had proposed the most 
stringent of three options in terms of reducing energy and 
water use. And our industry during the proceedings said we 
think that most stringent level is not going to work for the 
product, and the process didn't allow enough time for our 
industry to test products for performance. And DOE proposed 
this most stringent level. We, then, did the testing, and it 
was clear that products from multiple manufacturers could not 
clean the dishes.
    So there is something wrong with a process that goes--they 
missed that on the performance. You could say, well, we caught 
it in our comments, but that could have been done before DOE 
reached----
    Mr. Latta. If I can interrupt, OK, so when that occurred, 
what did DOE tell you? You are saying that we are having 
problems, but they say just keeping going anyway?
    Mr. McGuire. Well, they said their consultant said it is 
fine, that it won't be a performance problem. That is why we 
undertook the testing in the laboratories that are used for 
compliance for DOE, ENERGY STAR, and standards, and proved 
without a doubt that multiple loads of dishes could not be 
cleaned with about one gallon of water in a cycle. That is what 
they had reduced it to, 1.1 gallons. We showed them that, and 
they said, ``You're right.'' And then, they pulled it back and 
said no standard is justified.
    And by the way, the standard that they had proposed had a 
payback to the consumer of 20 years. The life cycle of a 
product, of a dishwasher, is 13 years. How does that make 
sense?
    Mr. Latta. Well, thank you very much.
    And, Mr. Chairman, my time has expired, and I yield back.
    Mr. Rush. I want to thank the gentleman. The Chair now 
recognizes Mr. Pallone, full committee chairman, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    Assistant Secretary Simmons stated on the first panel that 
the proposed process rule is to, quote, ``reduce the burden of 
the process to create tests and implement new energy efficiency 
standards''. But, after reviewing the proposed process rule, it 
appears to me that steps are added to the process, with the 
appearance of lengthening the process. While the proposed 
process rule is thin on some details, I count about 17 steps to 
make and implement a new standard. And I find it hard to 
believe it will be more efficient.
    So I wanted to ask Mr. deLaski, can you walk the committee 
through the standard-making process under the proposed process 
rule? And compared to the current rulemaking process, how much 
longer do you estimate that each rulemaking will take under 
this proposed process?
    Mr. deLaski. I am not sure I could walk you through it. I 
have a colleague who has mapped it out for us.
    Mr. Pallone. OK, that is good enough.
    Mr. deLaski. It is complicated.
    Mr. Pallone. Explain it, though, because I won't follow 
that.
    Mr. deLaski. There is a lot of steps on this. The current 
process, under ideal circumstances, the current process takes 
about three years. This has added multiple additional steps. 
And as has been referenced earlier, some of these earlier steps 
now become a final step that would be a possibility for 
litigation.
    So if the current process takes three years--at best, I 
would submit to you that, typically, it takes longer, as we 
have heard sometimes today--based on my experience working with 
the program over the past 20 years, I would expect that this is 
likely a recipe to at least double the duration of the process, 
if not just shut it down altogether, because of the litigation 
that you are creating possibilities for.
    Mr. Pallone. That sounds like great streamlining.
    Mr. Chairman, do we have that sheet that Mr. deLaski--can 
we enter that into the record?
    Mr. deLaski. I would be glad to submit it for the record. 
This is our first draft, and we will be working to finalize it.
    Mr. Pallone. You will send us something?
    Mr. deLaski. Yes.
    Mr. Pallone. OK.
    Well, in my opinion, these 17 steps in the rulemaking 
process, including the six public comment periods, are going to 
add years of delay, you said twice, and in some cases may block 
a standard from being implemented at all, which is what you 
said. Again, I am all for transparency, but this seems to me 
like delay masquerading as transparency, in all honesty.
    Now, in Assistant Secretary Simmons' testimony, he stated 
that DOE has issued seven final rules since President Trump 
took office. I was going to ask Ms. Kennedy, can you comment on 
this number? Does this represent work completed during the 
Trump administration or was some of this work completed by the 
Obama Department of Energy?
    Ms. Kennedy. It does not represent work undertaken by this 
administration. I will check on this and get back to you, but I 
believe that five of those standards which the Assistant 
Secretary referred to were issued under the Obama 
administration and two were congressional standards which 
really needed to be posted. But I will check on that and get 
back to you.
    Mr. Simmons acknowledged that there are 16 overdue 
standards that this administration hasn't issued and also, 
referred to the four Obama era efficiency standards which made 
it all the way through under that administration but have not 
been published in The Federal Register since 2016.
    Mr. Pallone. All right. Thank you.
    Mr. deLaski, I would like you, if you have anything to add 
to Ms. Kennedy's comments on that. But, then, I also wanted to 
ask you, I understand that appliance standards are saving 
people a lot of money and helping cut climate change emissions, 
but you also mentioned in your statement that they can help 
with resiliency, reliability, and affordability. So if you want 
to add to what Ms. Kennedy said, and then, if you could explain 
a bit more about what you said on resiliency, reliability and 
affordability?
    Mr. deLaski. Yes, I would be glad to do so. And just to 
follow up on Ms. Kennedy's comments, none of those seven 
standards represent substantive work by the current Department 
of Energy administration. They have not issued a single 
proposal for a new standard or a single proposal for a final 
standard that is the result of work under this administration.
    Mr. Pallone. All right. Thanks.
    Mr. deLaski. With respect to your second question, 
resiliency, it is often an overlooked benefit that we get from 
improving efficiency of all of our products. On the sweltering 
summer day when the electricity grid is struggling to keep up 
with the demand of people's air conditioners, it matters 
enormously how energy efficient those air conditioners are. By 
keeping down the demand levels--the electric grid has to match 
up. Demand and supply have to match up. And as the demand goes 
through the roof, if supply doesn't keep up, it leads to 
outages.
    The same thing on the heating side. When the polar vortex 
hits, the furnaces, the efficiency of furnaces in our homes 
affects the ability of the natural gas supply system to keep 
up. If the system can't keep up, if the pressure can't be kept 
up, then people suffer. So by keeping efficiency in place, we 
are building resiliency into the electric supply and the gas 
supply system that, ultimately, helps consumers to stay warm or 
to stay cool and to be safe.
    Mr. Pallone. All right. Thanks a lot.
    And thank you, Mr. Chairman.
    Mr. Rush. I want to thank Mr, Pallone. The Chair now 
recognizes Mr. Griffith for 5 minutes.
    Mr. Griffith. So here is the dilemma we have. I think we 
all want things to be more energy efficient, but we want 
products, when we go to buy them, to actually do what they are 
supposed to do and what they are purported to do, and not have 
to spend three times or double the cost to get our dishwasher 
working, to get our clothes washer working, to have our 
refrigerators working. I mean, that is the dilemma, and it is 
good that we are having this hearing, Mr. Chairman, so that we 
can try to sort these things out.
    But I did find it of interest, I had this thing that my 
constituent sent me, and it is a little old, about the washing 
machines that I mentioned in the previous hearing and have 
mentioned a couple of times over the years, because I had a 
constituent that was all fired-up about it. And I noticed in 
there that--and it is a little old, so I understand that; 
things may have gotten better. But, in 2007, according to this 
piece out of The Wall Street Journal, after the more stringent 
rules kicked in, Consumer Reports noted that some top-loaders--
washing machines we are talking about--were leaving its test 
swatches nearly as dirty as they were before washing. For the 
first time in years, Consumer Reports said, ``We can't call any 
washer a Best Buy.''
    ``In 2007''--again, I am acknowledging it is a little old, 
so I am not saying it is something we should take to heart 
today, but it shows the point that consumers are having the 
problem with--``in 2007, only one conventional top-loader was 
rated `very good.' Front-loaders did better, as did a new type 
of high-efficiency top-loader that lacks a central agitator. 
But, even though these newer types of washers cost about twice 
as much as conventional top-loaders, overall, they didn't clean 
as well as the 1996 models.''
    My dishwasher is newer now than it was three years ago. Got 
a new dishwasher. I find, as you, Mr. McGuire, pointed out, and 
even though that reg didn't come in, I am doing a whole lot 
more washing of the dishes before I stick them in the 
dishwasher. And I actually mentioned to my wife, maybe we 
should just not have one if they are not going to clean the 
dishes. And she said, yes, but the temperature gets hotter in 
the dishwasher and that helps to sanitize them. But when I am 
at home, I am washing those dishes and I am cleaning everything 
off of them because I don't trust the dishwasher. I am not 
going to pull that dish out of the dishwasher and serve it to 
somebody with specks of stuff on it.
    Mr. McGuire, isn't that the problem that you have been 
trying to highlight? Even though my dishwasher may not be the 
cause of the latest regs, but isn't that what consumers are 
finding out there?
    Mr. McGuire. It is a very important feature of the 
balancing test that Congress enacted into EPCA and DOE has to 
deal with. Significant energy savings, economic payback, and 
don't wreck the product. It has got to deliver performance.
    And our industry is in everyone's home every day. Our 
products have to be trusted. And so in the case of the 
dishwasher I had mentioned, fortunately, that was pulled back 
by DOE. But, in some of these home appliances, like clothes 
washers or cooking products, there are diminishing returns that 
make the payback questionable.
    We are not here arguing about whether there should be 
efficiency standards. We all agree on that. We are talking 
about how you do it and how you prioritize with limited 
resources.
    So we believe that today's dishwashers that meet today's 
standards perform very well. And I am sorry to hear about your 
neighbor's clothes washer.
    Mr. Griffith. Yes, and I don't think my dishwasher that I 
have now works as well as the one that was 15 or 20 years old 
before. But that is just anecdotal.
    Mr. McGuire. It should. It just uses less water, but it 
should operate just as well.
    Mr. Griffith. Yes. And then, you wanted to talk about----
    Mr. Friedman. As the representative of the Consumer 
Reports, could I just respond to that really quickly?
    Mr. Griffith. Well, sure. Do you have an update for me? Can 
you send me that data? Just send it to me because my time is 
running out.
    Mr. Friedman. I am happy to send it to you.
    We put out a letter to the editor of The Wall Street 
Journal because they misrepresented our data.
    Mr. Griffith. OK.
    Mr. Friedman. So that is an inaccurate reference.
    Mr. Griffith. All right. Well, that is fair. And I 
appreciate you letting me know that because I want accurate 
data.
    Mr. Friedman. I am happy to help.
    Mr. Griffith. The problem is the consumer is feeling like 
they are getting less. They are spending more money on the 
product that they bought before, a lot more money, and they are 
not getting the product that they thought they were getting. 
And they feel like they are not getting as much. I think we 
have to make sure we have that balance out there.
    Refrigerators, you wanted to talk about that a little bit, 
Mr. McGuire? You had talked about the efficiency on 
refrigerators for not a whole lot of money or for a whole lot 
of money more, $5 or $6 savings?
    Mr. McGuire. Well, yes, today's refrigerator standard that 
is in effect, and the ENERGY STAR level above it, which is 
voluntary, but that ENERGY STAR level is a more efficient 
product. And it is only saving the consumer about $5 a year in 
electricity payment. So it just shows you that some of these 
incremental changes for products that have been regulated three 
and four times are going to be harder to justify.
    Mr. Griffith. Right. I appreciate that.
    My time is up, and I yield back.
    Mr. Rush. The Chair now recognizes Mr. McEachin for 5 
minutes.
    Mr. McEachin. Thank you, Mr. Chairman.
    And to all of our witnesses, I would also say thank you for 
being here today.
    I want to just echo what I said earlier. Achieving greater 
energy efficiencies is incredibly important to the health of 
our planet and our communities. And pursuing these efficiencies 
will also put money back in the pockets of our constituents, 
including struggling families for whom every dollar, every 
extra dollar makes a difference. So I think our topic today is 
incredibly important, and I am very glad that we are having 
this hearing.
    Ms. Kennedy, I would like to echo the same question I asked 
Mr. Simmons earlier. Your testimony describes climate change as 
an existential threat, and you identify energy efficiency 
standards as a crucial tool in the struggle to minimize that 
change. So if energy efficiency standards are one tool in the 
climate toolkit, are we using that tool as effectively as 
current law permits? Does DOE decision making on these 
standards fully reflect the true long-term climate costs of 
greater energy use? And if not, what would you like to see 
improved?
    Ms. Kennedy. Thank you for that great question.
    The consequences of the Department of Energy's delays on 
energy efficiency standards are really moving us backward on 
climate change. So just to put some specifics there, DOE's 
failure to issue the 16 overdue energy efficiency standards 
that we have discussed puts at risk 70 million metric tons of 
carbon savings each year. That is more than the annual carbon 
emissions from energy use in all homes in New York City, Los 
Angeles, Houston, Chicago, and Philadelphia combined. So we are 
talking about some major backward progress on climate through 
DOE's inaction.
    We see the same thing through the lighting efficiency 
standards. The lighting provisions which were added in 2007 by 
Congress, and signed into law by President Bush, will have huge 
carbon savings. And by gutting the definition of light bulbs, 
as DOE is proposing to do, in effect, DOE is taking almost all 
of the energy efficiency savings out of that standard, a change 
that will cost consumers up to $12 billion on their utility 
bills and cause the use of up to 25 more power plants' worth of 
electricity each year.
    So this program, when it is in place and being robustly 
implemented, is a big climate pollution saver and a big 
pollution saver overall. But, right now, Americans aren't 
seeing those benefits from the efficiency standards program. We 
would like to see DOE get back on track with its legal 
responsibilities to issue these standards. We would like to see 
DOE abandon its efforts to really gut the lighting efficiency 
standards, which Congress put into place.
    And while we are happy to talk about improvements to the 
process on issuing efficiency standards, the process rule we 
are concerned is going to set us back, lose valuable time, as 
Mr. deLaski has outlined, and again, is really putting us in 
reverse, when we need to be all in on energy efficiency as a 
way of fighting climate and reducing American energy bills.
    Mr. McEachin. Thank you, ma'am.
    Mr. Harak, can you speak to how delays at DOE or laxity in 
terms of where standards are set adversely affect low-income 
families? Can we put a dollar figure on the savings that these 
families have missed out on as a result of the current 
administration's regulatory choices?
    Mr. Harak. I don't think I can put precise dollar figures 
on it, although I can give you an estimate. So furnaces, in 
particular, as I mentioned, are one of the biggest bills for 
people in States that have some level of serious heating load. 
And an efficient furnace could cut your bill, particularly if 
you are replacing an old, inefficient furnace--that is, when 
you bought it, it had a certain rating; well, it has degraded 
since then--it could cut the bill 25 percent. I know with the 
low-income network that I work with and that actually installs 
these furnaces in low-income homes, you could easily be cutting 
that person's heating bill by 25 percent. And for a low-income 
person living in an inefficient house with an inefficient 
furnace, that is hundreds of dollars a year that are being lost 
out.
    So as I mentioned in my initial testimony and in response 
to Mr. Pallone's questions, we are at the National Consumer Law 
Center particularly interested in stronger furnace standards 
because it is incredibly important for low-income people. And 
any delay in that--the last time the rule was significantly 
revised is more than 25 years ago now. There was some modest 
change in the 1990s. So delay really hurts low-income people 
and a very impact on their energy bills and their health and 
comfort, when you are talking about furnaces.
    Mr. McEachin. Thank you.
    And thank you, Mr. Chairman. I yield back.
    Mr. Rush. I want to thank the gentleman. The Chair now 
recognizes Mr. Veasey for 5 minutes for the purposing of 
questioning the witnesses.
    Mr. Veasey. Thank you, Mr. Chairman.
    Mr. Harak, I wanted you to talk a little bit more about 
renters. As you know, we have had a tremendous shift in our 
society. I will tell you, like personally, the neighborhood 
that my mother grew up in, the Lake Como community, because of 
segregation during that time period, there were people of all 
economic backgrounds that lived in that community, doctors, 
lawyers, but also people that worked in people's homes and 
drove buses, and did a lot of different jobs. Most of those 
families had two household incomes. They had two incomes inside 
of that house and they were homeowners.
    As you know, now many low-income people in this country can 
no longer afford to buy a home. They are no longer homeowners. 
And many of them no longer have the luxury of two incomes in a 
household, and they find themselves more and more having to 
rent.
    I wanted to ask you, what would be the stress put on low-
income households if landlords don't--if we don't update this 
policy, making landlords updating their appliances, and things 
like that? And what impact can that have on the bottom line of 
low-income household families?
    Mr. Harak. Do you mind if I just ask where your district 
is? I have lived in Texas. So I am curious.
    Mr. Veasey. In Fort Worth, Texas. Mom grew up in a little 
community in Fort Worth, Texas, called the Lake Como community.
    Mr. Harak. I have lived in Fort Worth. So I was curious.
    So let me say that, when the Department was considering 
central air conditioning standards, I made sure to speak to 
people at Texas ROSE, Ratepayers' Organization to Save Energy, 
in Texas, to get a sense of how do low-income people come into 
homes where there are these appliances. Well, one, they are 
renters. And as I mentioned in my testimony, renters will lose 
out if we don't have good standards because the owner is going 
to buy that appliance, and the owner is often going to go get 
the lower-cost appliance. It makes perfect economic sense.
    But, then, I also spoke to folks. Well, how do people wind 
up in homes even as homeowners, let's say, with central air 
conditioning? Well, they are usually buying an older home. And 
so someone else probably installed that appliance. So that a 
low-income person buying a modest home in Fort Worth is 
probably not going to install new central air conditioning. And 
so we need the standards because the homes that are now on the 
kind of secondary market, that appliance was installed by 
someone else. We want to have good standards because low-income 
are buying that home after the central systems have already 
been in the home. So I think both low-income renters, but even 
low-income homeowners benefit from strong standards around 
these appliances that are the major portion of their bills.
    I hope I answered your question.
    Mr. Veasey. Absolutely. No, that was actually very helpful.
    I wanted to ask you, Mr. Friedman, would you agree that the 
DOE has a clear set of tools in its toolbox to help low-income 
renters?
    Mr. Friedman. I do think DOE has many tools to help low-
income residents. But, let's be honest, with more resources, I 
think DOE could do more. The Weatherization program has an 
amazing history of helping folks and during ARRA, was able to 
really ramp-up and help even more. But, at this point, the 
funding is much lower than it was during the Recovery Act. So 
that is certainly one place where I think, with more resources, 
DOE could do more.
    I would also just add that ensuring that every dollar spent 
at DOE that is supposed to be focused on efficiency and getting 
appliance standards out is going to help everyone, and 
especially low-income homeowners who spend, as a share of their 
income, three times as much on heating, electricity, water, et 
cetera, than your average American. So low-income Americans 
tend to stand to gain even more than most Americans from these 
standards.
    Mr. Veasey. Thank you very much.
    Mr. Harak, do you have any----
    Mr. Harak. I do think Mr. Friedman raises an incredibly 
important point. I am meeting with my Congresswoman, Katherine 
Clark, I hope in about 30 minutes to talk to her about the need 
for increased funding for the Weatherization Assistance 
Program.
    If you want to talk about a program that makes a gigantic 
difference in the lives of low-income people, it is the 
Weatherization Assistance Program. As I mentioned in response 
to your first question, when the network I work with in 
Massachusetts goes to a low-income home, the low site savings 
are 20 percent in their energy bills. And if that house was 
really poorly insulated and had an old heating system, 
sometimes we are saving 40 percent in the household we are 
touching. So it is very important we get to more of those 
households, and that means we need a lot more money in the 
Weatherization Assistance Programs, which is, of course, part 
of DOE.
    I appreciate the question.
    Mr. Veasey. Absolutely. Thank you.
    Mr. Chairman, I yield back.
    Mr. Rush. I want to thank the gentleman. The Chair now 
recognizes Mr. O'Halleran from Arizona for 5 minutes for the 
purposes of questioning the witnesses.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    I would like to commend each of the witnesses in our second 
panel today for contributing thoughtful insight into this 
important conversation about energy efficiency standards. I 
believe we can all agree that meaningful efficiency standards 
are important not only for the marketplace, but for consumers 
and the environment as well.
    Mr. deLaski, in your testimony you cite a recent economic 
study which estimates that savings from energy efficiency 
standards resulted in 300,000 more jobs in the United States 
economy in 2016 than would have been the case, absent any 
standards. In your view, how might a delay in issuing 
efficiency standards impact the availability of these related 
jobs, especially in rural communities?
    Mr. deLaski. So the delay in the standards and updating 
standards is reducing the savings that consumers will get in 
the future. What was described in that economic study is the 
secondary effect, that if people save money on their bills, 
they are spending less money on gas and electricity and water 
and sewer bills, and that puts money back in their pocket that 
they spend on other goods and services. So the delays mean that 
there are $60-some billion in savings that are going to be 
delayed, which means people have less money in their pocket to 
put on other goods and services that helps to create jobs in 
local communities. So that is the cost.
    Mr. O'Halleran. Mr. Friedman, in your testimony you 
highlight your concerns with the Department's proposed changes 
of their process rule. In your view, do you see any harms 
caused to the marketplace by the Department setting a new 
definition for efficiency?
    Mr. Friedman. Well, certainly, the thresholds that they 
have created, I see significant harm in terms of devices that 
people refer to as vampire loads, all those electronics that 
now we literally rely on throughout our daily lives. If the 
process rule and that threshold blocks the ability of the 
agency to set those standards, it is going to set us all back. 
And right now, that equipment is about 40 percent of energy 
use. That is only going to grow, both as other appliances get 
more efficient and as we get more and more cool stuff.
    Mr. O'Halleran. Thank you.
    Ms. Kennedy, I used to be a project manager and working on 
fairly complex projects on technology and buildings and 
development of designs of buildings in order to incorporate 
technology into them. I am at a loss, and maybe you can help me 
because you seem to be very concerned with the timeliness of 
things getting done here. I am at a loss to understand how it 
takes so long within this Department--and quite frankly, I have 
worked with the FCC and the CFTC, and some others--to get 
things done in an efficient way, in a timely way, to make sure 
that we take advantage of changes in technology and other 
areas, and make sure that we, as a Government, are efficient, 
also, in moving projects forward and getting things done on 
time. Can you help me at all?
    Ms. Kennedy. I was struck by the fact that Assistant 
Secretary Simmons didn't point to any reason for the delays in 
the 16 overdue efficiency standards. He said that the 
Department had sufficient resources. He didn't point to any 
particular problem. And so that tells me that there is a 
problem, that there is a problem of will, and that we need to 
get that program back on track. There is nothing in regulation 
or statute that is causing those delays. It is something within 
the Department of Energy under this administration.
    And we have seen this program work well over various 
different administrations over the years of both political 
parties. So there is some issue around political will, possibly 
around ideology, which is holding things back. And that is 
really concerning for consumers, for the environment, for jobs, 
and our ability to fight back on climate change.
    Mr. O'Halleran. I do know the developers that I have worked 
for in the past would be very upset on cost overruns and not 
getting jobs in and done on time.
    So thank you, Mr. Chair. I yield.
    Mr. Rush. I want to thank the gentleman. The Chair now 
recognizes the gentleman from New York, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Chairman Rush.
    I believe efficiency must be our first fuel of choice. 
According to the International Energy Agency's Energy 
Efficiency 2018 Report, energy efficiency alone can account for 
more than 40 percent of the emissions reductions needed to meet 
global targets set forth in the Paris agreement.
    So Ms. Kennedy, what have you and NRDC found? How important 
is efficiency for achieving climate targets?
    Ms. Kennedy. Energy efficiency is absolutely crucial and 
fundamental to achieving our U.S. climate targets, or what 
should be our U.S. climate targets. Without energy efficiency, 
we can't get the job done. We need to also invest in 
renewables, electrify transportation and buildings, but energy 
efficiency is absolutely fundamental to fighting climate change 
and to doing it in an affordable way.
    NRDC issued a report last year called ``America's Clean 
Energy Frontier: The Pathway to a Safer Climate Future''. And 
energy efficiency is going to deliver the largest amount of 
carbon savings that the U.S. can muster. So it is really 
important.
    Mr. Tonko. Thank you.
    And would you say DOE's standards program plays a big role 
in our overall efficiency agenda?
    Ms. Kennedy. It plays a very crucial role, yes.
    Mr. Tonko. And can you give us a sense of how important 
improvements in lighting, including the performance gains and 
cost reductions in LED technologies, have been to improve 
building efficiency?
    Ms. Kennedy. The innovation that we have seen in lighting, 
the improvement that we have seen in lighting efficiencies, 
spurred by Congress' actions and by DOE's actions under the 
last administration, have been hugely important.
    Mr. Tonko. And, Ms. Kennedy, again, and Mr. deLaski and Mr. 
Friedman, I am sure all of you are familiar with the Energy 
Independence and Security Act of 2007. Can you explain the 
statutory backstop on tier 2 of lighting standards? And as you 
do that, can you also respond to the response made to me about 
the backstop of the Assistant Secretary and his rationale? 
Because I am trying to figure out what triggering the backstop 
is all about.
    Ms. Kennedy. Yes. The Department of Energy's current 
interpretation, which Assistant Secretary Simmons discussed 
this morning, is incorrect, in my view, and I have been 
addressing these issues for decades, both through litigation 
and through rulemaking, and other activities.
    EISA directed the Department of Energy to do a rulemaking 
by 2017 to examine the scope of light bulbs that would be 
included under the new set of standards and also, to examine 
whether the standards in the backstop should be stronger. The 
Obama administration came up with a rule, through a long 
process that involved all sorts of stakeholder engagement, and 
acting within the authority which EISA provided it, determined 
that the scope of general service lamps should be expanded in 
various ways to include a number of additional bulbs.
    The Department of Energy is now trying to undo that, and it 
faces a very high burden as it does that, because, as you know, 
once a Federal agency has gone through a long rulemaking, made 
a determination, there is no finding--there is no challenge 
striking down that determination, it is very, very hard to undo 
it and reach a different result.
    The backstop absolutely has been triggered. Congress in 
EISA included this backstop provision, so that if the 
Department of Energy didn't do its job, that backstop would be 
in place, as of January 1st, 2020. So that backstop is there. I 
believe it is enforceable. And what the Department of Energy is 
doing is creating all sorts of uncertainty for manufacturers 
and for consumers.
    And I will also just mention, those standards, the backstop 
standards, have been in place in California since 2018, and it 
has been a smooth transition, no problems, tons of bulbs on the 
market that meet those standards.
    Mr. Tonko. Thank you.
    Mr. deLaski and Mr. Friedman, I have just a little bit of 
time left, but if each of you could just speak to the comments 
made by the Assistant Secretary about the backstop?
    Mr. deLaski. I just will echo what Ms. Kennedy said, which 
is that the Assistant Secretary is wrong. The backstop has been 
triggered, and the light bulb standards needed to get back next 
year. That is what the law requires. And failure to do so is an 
abdication of the Department's legal obligations.
    Mr. Tonko. Mr. Friedman?
    Mr. Friedman. I could be wrong, but I am pretty sure my 
signature is on that rule that came out under the Obama 
administration. Our general counsel was very clear on the law. 
The Secretary supported the general counsel, and we issued a 
change in the definition. So I think the law is pretty clear, 
and I think, sadly, this may end up being the courts that have 
to reinforce what Congress said. Again, statute is not 
arbitrary. Statute is not optional. It needs to be followed.
    Mr. Tonko. And resolving it in the courts will only provide 
for more uncertainty.
    So I thank you all for your responses.
    And with that, Mr. Chair, I yield back.
    Mr. Rush. The gentleman yields back. The Chair now 
recognizes the gentleman from Vermont, Mr. Welch, for 5 
minutes.
    Mr. Welch. Thank you very much.
    I thank the panel.
    Mr. deLaski, Vermont enacted a couple of State-level 
standards, appliance standards, in the past two years, one for 
light bulbs and another that covers 18 products. Can you 
explain the relative role of States and the Federal Government 
in appliance standards?
    Mr. deLaski. Yes, I would be happy to. One of the 
fundamental elements of the Federal law that we haven't talked 
a lot about today is the Federal standards are generally 
preemptive. Once the Federal standards are in place, States are 
preempted from acting.
    But one of the fundamental elements of the Federal 
legislation is that, in preempting the States, the Congress put 
on DOE the obligation to keep standards up-to-date, to do the 
reviews we have been talking about. That is the deal.
    Mr. Welch. Right.
    Mr. deLaski. So when that is not happening, you are seeing 
more States, leaders like Vermont, and there are another 13 
States that are considering similar legislation currently, 
following in Vermont's leadership, leading footsteps. You are 
seeing more States step in. Now they can't address things that 
are preempted, but they are looking at other products.
    Mr. Welch. Right.
    Mr. deLaski. And they are also adopting the light bulb 
standards because they are concerned.
    Mr. Welch. Yes, let me go on that. So one of the laws that 
we did pass in Vermont was designed to protect against the 
Federal rollback of the light bulb standards, and it, 
essentially, copied the Federal light bulb standard in a State 
law. And now, the DOE has announced that they intend to rescind 
the broadened scope of the light bulb standards. What does that 
mean to States like Vermont and others that have essentially 
copied the Federal standard?
    Mr. deLaski. So Vermont, like California, will now be in a 
position to enforce standards, instead of the Federal 
Government. So what we are going to see is a State-by-State 
approach, in addition to insisting that the Federal standard 
also is in place. So the uncertainty that was referenced 
earlier, it is being multiplied over and over again.
    Mr. Welch. All right. Thank you.
    Mr. deLaski. Instead of having a situation where we knew 
what was going to happen--Congress set the bar 13 years ago--
now we have uncertainty that is creating lots of problems.
    Mr. Welch. Right. Thank you.
    Mr. Yurek, how does the uncertainty that was just 
mentioned, introduced by the DOE failure to meet their 
deadlines, affect your member companies? And you mentioned in 
your testimony that the feast-or-famine is not a helpful way 
for DOE to run the program. Can you explain what you mean by 
that?
    By the way, my whole understanding is that a lot of the 
manufacturers in the private sector, they can live with 
standards. They just want to know what they are, and then, the 
competition is about who can do the best product compliant with 
those standards.
    Mr. Yurek. That is very correct, Congressman. My members 
don't manufacture light bulbs. So I am not going to go down 
that path. But we do cherish and want certainty and 
predictability, and we need that to plan and make the 
investments in our products, in our production lines, in the 
distribution of those products. And so when there is a 
schedule, we want that schedule to be met, so that we can meet 
those. But we also want good rules that make sense.
    And it also goes to the different consumers that were 
talked about earlier and their ability to afford. And we want 
to make sure that they are economically justified, so all 
consumers, be they low-income as well as those that can afford 
the higher costs, can afford to get the equipment to get the 
comfort that they need. So it is balancing that and using the 
full timeframe for developing the rule versus short-circuiting 
it, and then, coming up with rules that might not be the best.
    Mr. Welch. OK. Ms. Kennedy, actually, following up on that 
question, one of the debates we have here--it was on the 
earlier panel where my friend from Virginia raised questions 
about the affordability of standards. That, by the way, is a 
concern I have. And we are always wrestling with whether the 
standard overdoes it by making a product more expensive than 
you can afford, and then, you lose the savings because the 
product isn't going to be deployed.
    So one of the challenges I have is there will always be a 
difference of opinion about where is the right place to land, 
but we probably agree, Morgan, that using less energy is better 
than using more. Is there some mechanism by which there can be 
some flexibility and quick response to negative reaction in the 
marketplace because the standard just overreaches a bit?
    Ms. Kennedy. Well, there is some flexibility in the 
procedures and the statute. Manufacturers have the ability to 
petition DOE for an exemption or waiver from a particular 
standard when----
    Mr. Welch. Could we get a turnaround on that a little 
quicker? Because I am actually sympathetic to that. I have a 
door and window manufacturer and they were totally committed to 
standards, totally committed to efficiency, but they actually 
were having a problem with the compliance challenges for a 
standard that was set to the point where people weren't going 
to be able to afford to buy that product. And if we can get an 
answer on that, then we take some of the fight out. Because the 
overreaction we have from some folks who are legitimately 
concerned about their lower-income consumers is to say, look we 
don't want any standards because it is going to price them out.
    And Mr. Griffith, I don't want that. I really want 
standards.
    But do you have some suggestions on how we could get a 
quicker turnaround, so there would be some confidence?
    Thank you, Mr. Chairman.
    Mr. Rush. The Chair wants to thank all the witnesses for 
your participation. I know it has been time-consuming, and we 
certainly value your time. We certainly appreciate all your 
efforts and all your testimony here this morning. We want to 
thank you very much.
    And the witnesses are dismissed. Right now, thank you once 
again.
    And the Chair requests unanimous consent to enter into the 
record documents that have been previously agreed to by the 
ranking member of the subcommittee. And without objection, so 
ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. I remind Members that, pursuant to committee 
rules, they have 10 business days to submit additional 
questions for the record to be addressed by the witnesses who 
have appeared. I ask each witness to respond promptly to any 
such question that you may receive.
    At this time, the subcommittee stands adjourned.
    [Whereupon, at 1:46 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
